APPENDIX

TABLE OF CONTENTS
APPENDIX A:

Opinion, No. 19-15074, 9th Cir.
(Dec. 9, 2020) ................................... 1a

APPENDIX B:

Order Granting Defendants’
Motions to Dismiss,
No. 18-cv-01031, N.D. Cal. (Dec.
12, 2018) ......................................... 24a

APPENDIX C:

Judgment, No. 18-cv-01031,
N.D. Cal. (Dec. 12, 2018) .............. 80a

APPENDIX D:

Order, No. 19-15074, 9th Cir.
(Jan. 15, 2021) ............................... 81a

APPENDIX E:

29 U.S.C. § 794 .............................. 83a

APPENDIX F:

42 U.S.C. § 18116 .......................... 86a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOHN DOE, One; JOHN
DOE, Two; JOHN DOE,
Three; JOHN DOE, Four;
on behalf of themselves
and all others similarly
situated; JOHN DOE, Five,
Plaintiffs-Appellants,
v.
CVS PHARMACY, INC.;
CAREMARK, LLC;
CAREMARK CALIFORNIA
SPECIALTY PHARMACY,
LLC; NATIONAL
RAILROAD PASSENGER
CORPORATION, DBA
Amtrak; LOWE’S
COMPANIES, INC.; TIME
WARNER, INC.
Defendants-Appellees,
and
CAREMARK RX, LLC;
CVS HEALTH
CORPORATION,

No. 19-15074
D.C. No. 3:18-cv-01031EMC
OPINION

2a
Defendants.
Appeal from the United States District Court
for the Northern District of California
Edward M. Chen, District Judge, Presiding
Argued and Submission Deferred June 12, 2020
Submitted December 1, 2020
San Francisco, California
Filed December 9, 2020
Before: MILAN D. SMITH, JR. and ANDREW D.
HURWITZ, Circuit Judges, and TIMOTHY M.
BURGESS, * District Judge.
Opinion by Judge Milan D. Smith, Jr.

______________________________________________________

SUMMARY **
_________________________________________________
Affordable Care Act
The panel affirmed in part and vacated in part the
district court’s order dismissing an action brought under
the Affordable Care Act and other statutes by individuals
living with HIV/AIDS whose pharmacy benefits manager
for their employer-sponsored health plans required them
The Honorable Timothy M. Burgess, Chief United States
District Judge for the District of Alaska, sitting by designation.
*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the reader.
**

3a
to obtain specialty medications through its designated
specialty pharmacy for those benefits to be considered “innetwork.”
The panel held that Section 1557 of the ACA
incorporates the anti-discrimination provisions of various
civil rights statutes, and prohibits discrimination on the
basis of race, color, or national origin pursuant to Title VI
of the Civil Rights Act of 1964, on the basis of sex pursuant
to Title IX of the Education Amendments Act of 1972, on
the basis of age pursuant to the Americans with
Disabilities Act, and on the basis of disability pursuant to
Section 504 of the Rehabilitation Act. Agreeing with the
Sixth Circuit, the panel held that Section 1557 did not
create a healthcare-specific anti-discrimination standard
that would permit a discrimination claim under any of the
enforcement mechanisms of the ACA regardless of
plaintiffs’ protected class. Accordingly, because plaintiffs
claimed discrimination on the basis of their disability, to
state a claim for a Section 1557 violation, they were
required to allege facts adequate to state a claim under
Section 504 of the Rehabilitation Act.
Vacating in part and remanding for further
proceedings, the panel held that plaintiffs stated a claim
for disability discrimination under the ACA. Applying the
Section 504 framework, the panel concluded that plaintiffs
adequately alleged that they were denied meaningful
access to their prescription drug benefit under their
employer-sponsored health plans because defendants’
program prevented them from receiving effective
treatment for HIV/AIDS.
The panel affirmed the district court’s dismissal of
plaintiffs’ claim of disability discrimination pursuant to the
Americans with Disabilities Act on the ground that a

4a
benefit plan is not a place of “public accommodation.” The
panel also affirmed the district court’s denial of plaintiffs’
claim for benefits pursuant to ERISA and their cause of
action under California’s Unfair Competition Law, except
to the extent it was predicated on a violation of the ACA.
COUNSEL
Jerry Flanagan (argued), Benjamin Powell, and Daniel L.
Sternberg, Consumer Watchdog, Los Angeles, California;
Alan M. Mansfield, Whatley Kallas LLP, San Diego,
California; Henry C. Quillen, Whatley Kallas LLP,
Portsmouth, New Hampshire; Edith M. Kallas, Whatley
Kallas LLP, New York, New York; for PlaintiffsAppellants.
Craig D. Singer (argued), Enu Mainigi, Grant A.
Geyerman, and Sarah Lochner O’Connor, Williams &
Connolly LLP, Washington, D.C.; Tami S. Smason, Foley
& Lardner LLP, Los Angeles, California; for DefendantsAppellees CVS Pharmacy, Inc.; Caremark, LLC; and
Caremark California Specialty Pharmacy, LLC.
Phillip J. Eskenazi (argued), Kirk A. Hornbeck, and
Christopher M. Butler, Hunton Andrews Kurth LLP, Los
Angeles, California, for Defendant-Appellee Lowe’s
Companies, Inc.
Michael Bernstein, Robinson & Cole LLP, New York,
New York; Jean E. Tomasco, Robinson & Cole LLP,
Hartford, Connecticut; for Defendant-Appellee Time
Warner, Inc.
Brian W. Shaffer, Morgan Lewis Bockius LLP,
Philadelphia, Pennsylvania; Elise M. Attridge and Seane
McMahan, Morgan Lewis Bockius LLP, Washington,
D.C.; for Defendant-Appellee National Railroad

5a
Passenger Corporation.
Jeffrey Blend, Tom Myers, and Arti Bhimani, AIDS
Healthcare Foundation, Los Angeles, California, as and
for Amicus Curiae.
Carly A. Myers, Silvia Yee, and Arlene B. Mayerson,
Disability Rights Education & Defense Fund, Berkeley,
California, for Amici Curiae Disability Rights Education
and Defense Fund, Disability Rights Advocates,
Disability Rights California, Disability Rights Legal
Center, National Health Law Program, and American
Civil Liberties Union.
_________________________________________________
OPINION
M. SMITH, Circuit Judge:
Does I–V (Does) are individuals living with HIV/AIDS
who have employer-sponsored health plans, and who rely
on those plans to obtain prescription drugs. Until
recently, Does could fill their prescriptions at community
pharmacies, where they were able to consult
knowledgeable pharmacists who were familiar with their
personal medical histories and could make adjustments to
their drug regimens to avoid dangerous drug interactions
or remedy potential side effects. Does allege these
services, among others, are critical to HIV/AIDS patients,
who must maintain a consistent medication regimen to
manage their chronic disease.
Now, Does’ pharmacy benefits manager, CVS
Caremark, requires all health plan enrollees to obtain
specialty medications, including HIV/AIDS drugs,
through its designated specialty pharmacy for those
benefits to be considered “in-network.” The in-network

6a
specialty pharmacy dispenses specialty drugs only by mail
or drop shipments to CVS pharmacy stores for pickup.
Does allege this program violates the anti-discrimination
provisions of the Affordable Care Act (ACA), the
Americans with Disabilities Act (ADA), and the California
Unruh Civil Rights Act (Unruh Act); denies them benefits
to which they are entitled under the Employee
Retirement Security Act (ERISA); and violates
California’s Unfair Competition Law (UCL). The district
court granted Defendants’ motion to dismiss. We affirm
in part, vacate in part, and remand for further proceedings
consistent with this opinion.
FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff-Appellants Does are individuals living with
HIV/AIDS who rely on employer-sponsored health plans
for their medications.
Defendant-Appellees CVS
Pharmacy, Inc., a retail pharmacy company, CVS
Caremark, LLC, a pharmacy benefits manager, and
Caremark California Specialty Pharmacy LLC, a
specialty pharmacy (together, CVS), are affiliates of nonparty CVS Health Corporation. Defendant-Appellees
Lowe’s Companies, Inc., Time Warner, Inc., and National
Passenger Co. (d/b/a Amtrak) (together, Employer
Defendants) provide prescription benefits to Does
through employer-based health plans.
Does allege that their prescription benefit plans allow
them to obtain specialty medications, such as their
HIV/AIDs prescriptions, at “in-network” prices only
through Caremark California Specialty Pharmacy (CSP),
which delivers medications to clients by mail or to a CVS
pharmacy for pickup (the Program). If Does do not obtain
their HIV/AIDS medications through CSP, those
medications are not considered “in-network” benefits

7a
covered by the health plans, which results in higher prices
amounting to thousands more dollars per month. Before
CVS enrolled Does in the Program, Does could obtain
HIV/AIDS medications from any in-network pharmacy,
including from non-CVS pharmacies (Network
Pharmacies), and receive their full insurance benefits.
Does allege that enrollment in the Program forces
them to forego essential counseling and consultation from
specialty pharmacists, who are
best positioned to: (i) detect potentially lifethreatening adverse drug interactions and
dangerous side effects, some of which may
only be detected visually; (ii) immediately
provide new drug regimens as their disease
progresses; and (iii) provide essential advice
and counseling that help HIV/AIDS
patients and families navigate the
challenges of living with a chronic and
sometimes debilitating condition.
The Program also forces those who are prescribed nonspecialty medications to fill certain prescriptions at
community pharmacies and other specialty drugs through
the Program. Does allege “[t]his ‘separate and unequal’
splitting of prescription providers also makes it difficult, if
not impossible, for CVS Caremark to track potentially
life-threatening drug interactions.”
According to Does, filling their prescriptions through
the Program causes them substantial difficulties and puts
their privacy at risk. They allege they must be present at
the time of delivery to avoid missing deliveries, having
medications stolen, or having medications damaged by
being left out in the elements. They also report making

8a
multiple trips to CVS pharmacies—sometimes at great
distances from their homes—to correct prescriptions that
were filled incorrectly, and risking their privacy when
CVS pharmacy staff shout their names and medications in
front of other customers. Deliveries to the home or the
workplace risk notifying neighbors or coworkers that
Does have HIV/AIDS.
Several Does have requested to opt out of the
Program. Those requests were denied.
Does allege the “Program constitutes a material and
discriminatory change in Class Members’ coverage, a
significant reduction in or elimination of prescription drug
benefits, and a violation of the standards of good health
care and clinically appropriate care for HIV/AIDS
patients.” Does assert the following claims against CVS
and the Employer Defendants: (1) violation of the antidiscrimination provisions of the ACA, 42 U.S.C. § 18116;
(2) violations of the ADA, 42 U.S.C. § 12182; (3) state law
violations of the UCL and the Unruh Act; and (4) claims
under ERISA for benefits due under the plan, 29 U.S.C.
§ 1132(a)(1)(B), breach of fiduciary duty, 29 U.S.C.
§ 1132(a)(3), and failure to provide full and fair review, 29
U.S.C. § 1132(a)(3).
Following briefing and oral argument, the district
court dismissed Does’ complaint with prejudice. This
appeal followed.
STANDARDS OF REVIEW
“We review de novo a district court’s dismissal under
Rule 12(b)(6) of the Federal Rules of Civil Procedure.”
Curtis v. Irwin Indus., Inc., 913 F.3d 1146, 1151 (9th Cir.
2019). In doing so, “[w]e accept all factual allegations in
the complaint as true and construe the pleadings in the

9a
light most favorable to the nonmoving party.” Id.
(internal quotation marks omitted). “We also review de
novo a district court’s interpretation and construction of a
federal statute.” Holmes v. Merck & Co., 697 F.3d 1080,
1082 (9th Cir. 2012).
ANALYSIS
A
Section 1557 of the ACA incorporates the antidiscrimination provisions of various civil rights statutes,
and prohibits discrimination on the basis of race, color, or
national origin pursuant to Title VI of the Civil Rights Act
of 1964 (42 U.S.C. § 2000d et seq.), on the basis of sex
pursuant to Title IX of the Education Amendments of
1972 (20 U.S.C. § 1681 et seq.), on the basis of age pursuant
to the ADA (42 U.S.C. § 6101 et seq.), and on the basis of
disability pursuant to Section 504 of the Rehabilitation Act
(29 U.S.C. § 794). 42 U.S.C. § 18116. Does argue that
Section 1557 creates a new healthcare-specific antidiscrimination standard that permits a discrimination
claim under any of the enforcement mechanisms of the
statute regardless of Does’ protected class status.
Accordingly, Does maintain that they state a Section 1557
claim for disability discrimination on a disparate impact
theory, regardless of whether Section 504 of the
Rehabilitation Act would permit a disparate impact claim.
In Schmitt v. Kaiser Foundation Health Plan of
Washington, we left open the question of whether the
ACA created a healthcare-specific anti-discrimination
standard that allowed plaintiffs to choose standards from
a menu provided by other anti-discrimination statutes.
965 F.3d 945, 954 (9th Cir. 2020). We answer now in the
negative.

10a
The Sixth Circuit rejected an identical argument in
Doe v. BlueCross BlueShield of Tennessee, Inc., 926 F.3d
235 (6th Cir. 2019). The court concluded that the statutory
text of Section 1557—which prohibits discrimination “on
the ground prohibited under” Title VI, Title IX, the Age
Discrimination Act, or the Rehabilitation Act—did not
lend itself to an interpretation that would permit a plaintiff
to “pick the statute with the lightest standard from this
menu of four options and use that standard of liability in
prosecuting his claim for disability discrimination.” Id. at
238. Rather, the court interpreted the word “ground” to
refer to
the forbidden source of discrimination:
race, color, and national origin (Title VI);
sex (Title IX); age (Age Discrimination Act);
and disability (Rehabilitation Act). When
“ground” is paired with “prohibited,” as in
“on the ground prohibited,” the statute
picks up the type of discrimination—the
standard for determining discrimination—
prohibited under each of the four
incorporated statutes. If the claimant seeks
relief for discrimination “on the ground
prohibited” by § 504 of the Rehabilitation
Act, for example, he must show differential
treatment “solely by reason of” disability,
29 U.S.C. § 794(a), not some other standard
of care.
Id. The court reasoned that, while the ACA prohibits
discrimination based on several different grounds, “[b]y
referring to four statutes, Congress incorporated the legal
standards that define discrimination under each one.” Id.
at 239.

11a
The second sentence of Section 1557 supports that
interpretation.
It states that “[t]he enforcement
mechanisms provided for and available under such title
VI, title IX, [S]ection 504, or such Age Discrimination Act
shall apply for purposes of violations of this subsection.”
42 U.S.C. § 18116(a). The Sixth Circuit interpreted the
phrase “enforcement mechanism” to “cover[] the distinct
methods available under the four listed statutes for
compelling compliance with the substantive requirements
of each statute,” noting that “[i]f the first sentence created
a brand-new single standard for what qualifies as
discrimination, why would Congress use four distinct
families of enforcement mechanisms to compel compliance
with that standard rather than creating a matching single
mechanism?” BlueCross BlueShield, 926 F.3d at 239. The
Sixth Circuit thus concluded that Section 1557 “prohibits
discrimination against the disabled in the provision of
federally supported health programs under § 504 of the
Rehabilitation Act. In doing so, the ACA picks up the
standard of care for showing a violation of § 504, not the
other laws incorporated by the statute.” Id.
We find BlueCross BlueShield persuasive and hold
that Section 1557 does not create a new healthcare-specific
anti-discrimination standard.
Because Does claim
discrimination on the basis of their disability, to state a
claim for a Section 1557 violation, they must allege facts
adequate to state a claim under Section 504 of the
Rehabilitation Act.
B
Section 504 of the Rehabilitation Act provides, “No
otherwise qualified individual with a disability . . . shall,
solely by reason of her or his disability, be excluded from
the participation in, be denied the benefits of, or be

12a
subjected to discrimination under any program or activity
receiving Federal financial assistance[.]” 29 U.S.C. § 794.
In Alexander v. Choate, 469 U.S. 287 (1985), the
Supreme Court concluded that not all disparate-impact
showings qualify as prima-facie cases under Section 504.
Id. at 299. Choate involved a challenge by Medicaid
recipients to a proposed reduction in the number of
inpatient hospital days covered by Tennessee’s Medicaid
program from 20 to 14. Id. at 289. The plaintiffs argued
the reduction would disproportionately affect people with
disabilities, who typically required more in-patient care,
and thus discriminated against people with disabilities in
violation of Section 504. Id. at 290. Rather than try to
classify particular instances of discrimination as
intentional or disparate-impact, the Court focused on
whether disabled persons had been denied “meaningful
access” to state-provided services. Id. at 302. In
discussing whether disabled individuals had meaningful
access to plan benefits under the 14-day in-patient
limitation, the Court did not limit its consideration to
whether the policy applied on the same terms to people
with disabilities as it did to those without. It also
considered whether the in-patient limitation would have
the effect of systematically excluding people with
disabilities.
Id.
After considering Section 504’s
regulations, the federal Medicaid Act, and HHS
guidelines, the Court ultimately concluded that “[b]ecause
the handicapped have meaningful and equal access to that
benefit, Tennessee is not obligated to . . . provide the
handicapped with more than 14 days of inpatient
coverage.” Id. at 306. We assess Section 504 claims under
the standard articulated in Choate. Mark H. v. Lemahieu,
513 F.3d 922, 937 (9th Cir. 2008).

13a
1.
Under the test outlined in Choate, we first consider the
nature of the benefit Does were allegedly denied. The
district court defined the benefit as an entitlement “to
obtain HIV/AIDS medication for favorable prices at nonCVS pharmacies,” but Does argue the denied benefit is
meaningful access to “the prescription drug benefit as a
whole[.]” Construing the allegations in the light most
favorable to Does, we agree with Does’ articulation of the
benefit. The crux of Does’ complaint is that the Program
discriminates against them by eliminating various aspects
of pharmaceutical care that they deem critical to their
health. Moreover, looking to the benefit’s statutory
source, as the Supreme Court did in Choate, 469 U.S. at
303, the ACA requires that health plans cover prescription
drugs as an “essential health benefit.” 42 U.S.C.
§ 18022(b)(1)(F). The district court’s definition unduly
narrowed the benefit to obtaining specialty drugs at
favorable prices from certain pharmacies, when Does’
characterization of the benefit tracks the ACA, asserting
more than just cost-related differences.
2.
Second, we analyze whether the plan provided
meaningful access to the benefit. The district court
erroneously evaluated the benefits under the ACA at issue
here against the guarantees, or lack thereof, of the
Medicaid Act.
In Choate, the Supreme Court relied on the Medicaid
Act to determine the scope of the concerned Medicaid
benefit, observing that “[t]he Act gives the States
substantial discretion to choose the proper mix of amount,
scope, and duration limitations on coverage, as long as

14a
care and services are provided in ‘the best interests of the
recipients.’” Id. at 303 (quoting 42 U.S.C. § 1396a(a)(19)).
The Court concluded that disabled Medicaid recipients
had not been denied meaningful access to a benefit to
which they were entitled, id. at 306, because the Medicaid
Act did not guarantee Medicaid recipients “adequate
health care,” or the “level of health care precisely tailored
to his or her particular needs,” id at 303.
Consistent with Choate, the district court in this case
should have looked to the ACA to determine whether Does
adequately alleged they were denied meaningful access to
an ACA-provided benefit. Indeed, Does have adequately
alleged that they were denied meaningful access to their
prescription drug benefit, including medically appropriate
dispensing of their medications and access to necessary
counseling. Due to the structure of the Program as it
relates to HIV/AIDS drugs, Does claim, they cannot
receive effective treatment under the Program because of
their disability.
Courts also look to the regulations promulgated
pursuant to the statute at issue to inform the meaningful
access inquiry. See Choate, 469 U.S. at 304–06; K.M. ex
rel. Bright v. Tustin Unified Sch. Dist., 725 F.3d 1088,
1102 (9th Cir. 2013). The ACA regulations require that
“any restriction on a benefit or benefits must apply
uniformly to all similarly situated individuals,” and must
“not be directed at individual participants or beneficiaries
based on [disability].” 45 C.F.R. § 146.121(b)(1)(i)(B).
Moreover, the regulations state, “An issuer does not
provide [essential health benefits] if its benefit design, or
the implementation of its benefits design, discriminates
based on an individual’s . . . disability[.]” Id. § 156.125(a)
(emphasis added).
Does allege the structure and

15a
implementation of the Program discriminates against
them on the basis of their disability by preventing
HIV/AIDS patients from obtaining the same quality of
pharmaceutical care that non-HIV/AIDS patients may
obtain in filling non-specialty prescriptions, thereby
denying them meaningful access to their prescription
drug benefit. Those allegations are sufficient to state an
ACA disability discrimination claim.
The fact that the benefit is facially neutral does not
dispose of a disparate impact claim based on lack of
meaningful access. Following Choate, we recognized that
the unique impact of a facially-neutral policy on people
with disabilities may give rise to a disparate impact claim
where state “services, programs, and activities remain
open and easily accessible to others.” Crowder v.
Kitagawa, 81 F.3d 1480, 1484 (9th Cir. 1996); see also
K.M., 725 F.3d at 1102 (“We have relied on Choate’s
construction of Section 504 in ADA Title II cases, and have
held that to challenge a facially neutral government policy
on the ground that it has a disparate impact on people with
disabilities, the policy must have the effect of denying
meaningful access to public services.”). Here, Does have
alleged that even though the Program applies to specialty
medications that may not be used to treat conditions
associated with disabilities, the Program burdens
HIV/AIDS patients differently because of their unique
pharmaceutical needs. Specifically, they claim that
changes in medication to treat the continual mutation of
the virus requires pharmacists to review all of an
HIV/AIDS patient’s medications for side effects and
adverse drug interactions, a benefit they no longer receive
under the Program. Thus, the fact that the Program may
apply to plan enrollees in a facially neutral way does not

16a
necessarily defeat a § 504 claim.
Finally, the district court erred by requiring that Does
plead allegations showing the Program impacts people
with HIV/AIDS in a unique or severe manner. The
meaningful access standard in Choate does not require
Does to allege that their deprivation was unique to those
living with HIV/AIDS, nor that the deprivation was
severe—only that they were not provided meaningful
access to the benefit.
Construing the allegations in the light most favorable
to Does, Does stated a claim for disability discrimination
under the ACA. Applying the § 504 framework, Does
adequately alleged that they were denied meaningful
access to their prescription drug benefit under their
employer-sponsored health plans because the Program
prevents them from receiving effective treatment for
HIV/AIDS. 1 Accordingly, we vacate the district court’s
dismissal of Does’ ACA claim and remand for further
proceedings. 2
C
Does also challenge the district court’s dismissal of
their claim of disability discrimination pursuant to the
Does also try to fashion a failure-to-accommodate claim pursuant to
Section 504 of the Rehabilitation Act and the Unruh Act by piecing
together allegations from their complaint and statements from the
district court’s order. Because this theory was raised for the first time
on appeal, we do not address it. See Dream Palace v. City of
Maricopa, 384 F.3d 990, 1005 (9th Cir. 2004).
1

CVS argues this court should also affirm the district court’s
dismissal of the ACA claim because Does did not adequately allege
CVS’s receipt of “federal financial assistance.” The district court
should address this issue on remand in the first instance.
2

17a
ADA. To succeed on this claim, a “plaintiff must show that
(1) she is disabled within the meaning of the ADA; (2) the
defendant is a private entity that owns, leases, or operates
a place of public accommodation; and (3) the plaintiff was
denied public accommodations by the defendant because
of her disability.” Molski v. M.J. Cable, Inc., 481 F.3d 724,
730 (9th Cir. 2007). Does fail to plead the denial of a public
accommodation because a benefit plan is not a place of
“public accommodation.” See Weyer v. Twentieth Century
Fox Film Corp., 198 F.3d 1104, 1115 (9th Cir. 2000).
Weyer distinguished between the ADA’s requirement of
equal access—that a place of public accommodation like “a
bookstore cannot discriminate against disabled people in
granting access”—and content—that the same bookstore
“need not assure that the books are available in Braille as
well as print.” Id. Thus, “an insurance office must be
physically accessible to the disabled but need not provide
insurance that treats the disabled equally with the nondisabled.” Id. (quoting Ford v. Schering-Plough Corp.,
145 F.3d 601, 613 (3d Cir. 1998)).
We affirmed Weyer in Chabner v. United of Omaha
Life Insurance Co., 225 F.3d 1042, 1047 (9th Cir. 2000),
holding that the ADA did not apply to the terms of a nonstandard life insurance premium based on an increased
mortality rate. Id. at 1045–47. We upheld the “content”
versus “access” distinction, reasoning that the insurance
company administering the plan was not a place of public
accommodation because “the employees received their
benefits through employment, and not through a public
accommodation.” Id. at 1047. The Sixth Circuit’s decision
in BlueCross BlueShield concluded the same: “Doe
targets BlueCross’s operation of his health care plan, not
its control over his pharmacy. And Doe’s health plan

18a
simply does not qualify as a public accommodation.” 3
BlueCross BlueShield, 926 F.3d at 244.
The same is true here. Does are subject to the
Program pursuant to the terms of their employerprovided health plans. Those plans require them to pay
higher prices for specialty drugs at Network Pharmacies
if Does choose to fill their prescriptions there, but those
plans do not themselves deny Does access to those
locations.
Because Does have not plausibly alleged that their
benefit plan is a place of public accommodation, they
cannot maintain a claim of discrimination under the ADA.
We therefore need not address the question of whether
Does were denied access to their health plan on the basis
of their disability within the meaning of the ADA. We
affirm the district court’s dismissal of Does’ ADA claim.
D
Does next argue that the district court erred by
dismissing their claim for benefits pursuant to ERISA.
ERISA provides a right of action for plan participants or
The Third, Fifth, and Sixth Circuits are in accord. See Ford v.
Schering-Plough Corp., 145 F.3d at 613 (3d Cir. 1998); McNeil v. Time
Ins. Co., 205 F.3d 179, 188 (5th Cir. 2000) (“[W]e read Title III to
prohibit an owner, etc., of a place of public accommodation from
denying the disabled access to the good or service and from
interfering with the disableds’ full and equal enjoyment of the goods
and services offered. But the owner, etc., need not modify or alter the
goods and services that it offers in order to avoid violating Title III.”);
Parker v. Metro. Life Ins. Co., 121 F.3d 1006, 1012 (6th Cir. 1997)
(“Title III does not govern the content of a long-term disability policy
offered by an employer. The applicable regulations clearly set forth
that Title III regulates the availability of the goods and services the
place of public accommodation offers as opposed to the contents of
goods and services offered by the public accommodation.”).

3

19a
beneficiaries “to recover benefits due . . . under the terms
of [a] plan, to enforce [ ] rights under the terms of the plan,
or to clarify [ ] rights to future benefits under the terms of
the plan.” 29 U.S.C. § 1132(a)(1)(B). To plead a violation
of the statute, a plaintiff must allege “the existence of an
ERISA plan,” and identify “the provisions of the plan that
entitle [them] to benefits.” Almont Ambulatory Surgery
Ctr., LLC v. UnitedHealth Grp., Inc., 99 F. Supp. 3d 1110,
1155 (C.D. Cal. 2015). The district court dismissed this
claim because Does failed to identify a specific term in
their health care plan that conferred the benefits they
claim they were denied.
Does do not challenge this holding on appeal, or
otherwise offer specific plan terms that undermine that
holding. While Does continue to argue that the Program
denies them the benefit under their health plan to obtain
medications at any in-network community pharmacies,
they have not identified any provision in their plans
conferring such a benefit.
Rather, Does argue for the first time on appeal that
their Plans were not “validly amended” to implement the
Program, and that the Program’s corresponding changes
to the procedures by which Does must obtain their
HIV/AIDS drugs “caused a reduction in or elimination of
benefits without a change in actual coverage.” Because
Does raise this argument for the first time on appeal, it is
waived, Clemens v. CenturyLink Inc., 874 F.3d 1113, 1117
(9th Cir. 2017), and we affirm the district court’s dismissal
of this claim.
E
Finally, Does argue that the district court erred by
dismissing their claim pursuant to the UCL. The UCL

20a
prohibits “unlawful, unfair or fraudulent business act[s] or
practices[s].” Cal. Bus. & Prof. Code § 17200. “Each of
these three adjectives captures a ‘separate and distinct
theory of liability.’” Rubio v. Capital One Bank, 613 F.3d
1195, 1203 (9th Cir. 2010) (quoting Kearns v. Ford Motor
Co., 567 F.3d 1120, 1127 (9th Cir. 2009)). Does argue the
district court erred by dismissing their UCL claim
premised on the “unlawful” and “unfair” prongs. We
address each prong in turn.
1.
A § 17200 action “to redress an unlawful business
practice ‘borrows’ violations of other laws and treats
[them] . . . as unlawful practices independently
actionable.” Farmers Ins. Exch. v. Superior Court, 826
P.2d 730, 734 (Cal. 1992). Does allege CVS violated the
UCL by violating the ACA, ADA, Unruh Act, and 45
C.F.R. § 156.122(e). The district court concluded the UCL
claim failed to the extent the predicate ACA, ADA, and
Unruh Act claims failed. Because we hold that Does
stated a claim under the ACA, we vacate the district
court’s holding on the UCL claim as to the ACA predicate.
Does also argue the court erred in dismissing the UCL
claim premised on a violation of 45 C.F.R. § 156.122(e).
That regulation requires health plans providing essential
benefits to “allow enrollees to access prescription drug
benefits at in-network retail pharmacies, unless . . . [t]he
drug requires special handling, provider coordination, or
patient education that cannot be provided by a retail
pharmacy.”
Does point to paragraphs in their complaint that
describe or recite the regulation to argue they stated a
claim pursuant to the UCL. However, those allegations

21a
are conclusory and do not allege facts demonstrating how
CVS violated the regulation. Moreover, the district court
properly concluded that “[t]he regulation does not
guarantee
Plaintiffs’
access
to
out-of-network
pharmacies.” Does’ health plans do allow them to access
prescription drugs from in-network retail pharmacies,
just not in the way that Does would like. That is not
sufficient to state a UCL claim.
2.
The complaint did not expressly allege a UCL violation
on account of an unfair business practice, but the district
court construed it to so plead. The court interpreted the
relevant portion of the complaint to mean that “the
Program causes [Does] harm in the form of less
convenient access to their prescription medication, and
that Defendants’ decision to enroll Plaintiffs in the
Program was ‘ultimately motivated by profit.’” Does
dispute this interpretation, arguing that “[w]hat made the
business practice at issue ‘unfair’ was how the Program
was actually applied, resulting in conduct that violated
public policy and harmed consumers.” Does appear to
base that allegation on three different tests courts use to
evaluate unfairness under the UCL.
Under the UCL’s unfairness prong, courts consider
either: (1) whether the challenged conduct is “tethered to
any underlying constitutional, statutory or regulatory
provision, or that it threatens an incipient violation of an
antitrust law, or violates the policy or spirit of an antitrust
law,” Durell v. Sharp Healthcare, 183 Cal. App. 4th 1350,
1366 (2010)); (2) whether the practice is “immoral,
unethical, oppressive, unscrupulous or substantially
injurious to consumers,” Morgan v. AT&T Wireless
Servs., Inc., 177 Cal. App. 4th 1235, 1254 (2009); or

22a
(3) whether the practice’s impact on the victim outweighs
“the reasons, justifications and motives of the alleged
wrongdoer.” Id.
Applying the tethering test, Does do not mention the
public policy allegedly violated, either in the complaint or
the briefing, nor do they explain how, the Program
violated that policy. See McKell v. Wash. Mut., Inc., 142
Cal. App. 4th 1457, 1473 (2006). And, as to the balancing
test, Does assert in a conclusory fashion that CVS’s
conduct “outweighs any justification, motive or reason
therefor,” but they do not allege how that is so. As to the
“immoral” test, Does challenge the district court’s
conclusion that profit motive is not enough to show
“immoral, unethical, oppressive, unscrupulous or
substantially injurious” conduct, and argue that resolution
of the claim under the immoral test “requires a review of
evidence from both sides and is independent of any
contractual relationship between the parties,” such that
the court erred in dismissing the claim. But the complaint
left the district court to guess what conduct Plaintiffs
alleged satisfied the “unfair” prong of the UCL. Does
allege no facts that would support their position, and their
conclusory recitation of one of the UCL’s legal standards
does not clarify what conduct they claim is unfair, or on
what allegations in the complaint Does rely for this claim.
The claim is not adequately pled to give proper notice of
Does’ claim and the grounds on which it lies. See Fed. R.
Civ. P. 8(a)(2). We therefore affirm the district court’s
denial of the UCL unfairness claim.
F
Does argue in their reply brief that reversal of the
district court’s “erroneous holdings” should revive its
claim for declaratory relief. Because Does did not mention

23a
the declaratory relief claim in their opening brief, they
waived this issue. Friends of Yosemite Valley v.
Kempthorne, 520 F.3d 1024, 1033 (9th Cir. 2008).
CONCLUSION
For the foregoing reasons, we vacate the district
court’s dismissal of Does’ ACA claim and UCL claim to the
extent it is predicated on a violation of the ACA. We
affirm the district court’s dismissal of all other claims.
AFFIRMED in part, VACATED, in part, AND
REMANDED.

24a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
JOHN DOE ONE, et al.,
Case No. 18-cv-01031Plaintiffs, EMC
v.

ORDER GRANTING
DEFENDANTS’
MOTIONS TO DISMISS

CVS PHARMACY, INC.,
et al.,
Defendants. Docket Nos. 87, 89, 97,
113

Plaintiffs bring this putative class action alleging that
they have been discriminatorily denied benefits under
their employer-offered prescription drug benefit plans.
The complaint names two sets of defendants: CVS
Pharmacy, Inc., Caremark, LLC., and Caremark
California Specialty Pharmacy, LLC (collectively “CVS”),
and Amtrak, Lowe’s Companies, and Time Warner, Inc.
(collectively “Employer Defendants”). CVS contracted
with Employer Defendants to provide prescription drug
benefits to Plaintiffs. Plaintiffs allege that their benefit
plans allow them to obtain their HIV/AIDS medications
at favorable “in-network” prices only via mail or from a
CVS pharmacy. Compared to the non-CVS “community
pharmacies” from which Plaintiffs were previously able to
obtain their medications, the mail order and CVS
Pharmacy pickup options do not offer the same level of
privacy, convenience, reliability, and service.

25a
Plaintiffs bring eight causes of action: (1) violation of
the anti-discrimination provision of the Affordable Care
Act (“ACA”); (2) violation of Title III of the Americans
with Disabilities Act (“ADA”); (3) violation of the
California Unruh Civil Rights Act; (4) violation of the
California Unfair Competition Law (“UCL”); (5) claim for
benefits due under plans governed by the Employee
Retirement Income Security Act (“ERISA”); (6) claim for
breach of fiduciary duties under ERISA; (7) failure to
provide full and fair review under ERISA; and
(8) declaratory relief. Counts 1–4 are against CVS only.
Counts 5–8 are against all Defendants. CVS and each of
the Employer Defendants have moved to dismiss the
complaint.
For the reasons discussed below, the Court GRANTS
CVS and Employer Defendants’ motions to dismiss.
Plaintiffs’ ACA and ADA claims fail because the benefit
plan restrictions they challenge do not discriminate on the
basis of HIV/AIDS status or disability generally; the
restrictions apply to medications that treat disabilities as
well as those that do not. Plaintiffs’ Unruh Act claim fails
because they cannot show intentional discrimination on
the part of CVS. They have not stated a claim under the
UCL because the benefit restrictions are neither
“unlawful” nor “unfair.” Plaintiffs’ ERISA claims against
CVS fail because their benefit plans do not entitle them to
the benefit they seek, and because CVS is not an ERISA
fiduciary with respect to the benefit plans. Plaintiffs’
ERISA claims against Employer Defendants fail for
similar reasons.
I. FACTUAL AND PROCEDURAL BACKGROUND
The First Amended Complaint alleges the following.

26a
Plaintiffs 1 are individuals living with HIV/AIDS who are
enrolled in employer-sponsored health plans. Docket No.
75 (“FAC”) ¶ 1. CVS Defendants “act as agents of one
another and operate as a single entity for purposes of
administering pharmacy benefits and providing
prescription drugs to health plans and health plan
members.” Id. ¶ 14. One of the CVS Defendants, CVS
Caremark, administers the prescription drug benefits
under Plaintiffs’ plans. Id. ¶ 1. In order to qualify for
lower “in-network” drug prices under their plans,
Plaintiffs are required by CVS Caremark to obtain their
HIV/AIDS medications from Caremark California
Specialty Pharmacy, which delivers medications in one of
two ways: by mailing the medications to Plaintiffs
directly, or by mailing them to a CVS Pharmacy for
pickup. Id. Otherwise, Plaintiffs “must either pay more
out-of-pocket or pay full-price” to procure their
HIV/AIDS medication from an “out-of-network”
community pharmacy. Id. Plaintiffs refer to this CVSmandated scheme for obtaining medications as “the
Program.” Id. All drugs designated in the benefit plans
as “specialty medications” are subject to the Program’s
restrictions, not just drugs that treat HIV/AIDS.
However, Plaintiffs allege that HIV/AIDS patients are
“disproportionately impacted by the Program” due to the
“complex nature of their disease and medications.” Id.
¶¶ 92, 94. CVS Caremark offers “financial inducements”
to health plan sponsors—Plaintiffs’ employers—to enroll
Plaintiffs in benefit plans subject to the Program. Id. ¶ 2.
Before their employers enrolled Plaintiffs in the
Program, each of the Named Plaintiffs was able to
Plaintiffs are proceeding under pseudonyms due to the sensitive
nature of this action. FAC at 1 n.3.

1

27a
purchase their HIV/AIDS medications through their
benefit plan from any in-network pharmacy, including
non-CVS pharmacies, with full insurance benefits. See id.
¶¶ 9–13. Many of them had long obtained their
medications from their local “community pharmacies” and
had developed relationships with their pharmacists. Id.
These in-person appointments with expert pharmacists
who were familiar with Plaintiffs and their medical
histories serve a critical function because the pharmacists
can “detect potentially life-threatening adverse drug
interactions and dangerous side effects, some of which
may only be detected visually”; immediately prescribe
new drug regimens as Plaintiffs’ conditions progress and
evolve; and provide essential counseling to help Plaintiffs
and their families navigate the challenges of living with a
chronic condition. Id. ¶¶ 70, 80–84, 89.
Since being enrolled in the Program, however,
Plaintiffs have faced numerous difficulties and indignities
in their efforts to obtain their HIV/AIDS medications.
Those who opted to have the medication mailed to their
homes have experienced delivery problems. Id. ¶¶ 37, 46,
51. For example, in some instances the packages
containing their medications were left “baking in the
afternoon sun,” which could “quickly degrade the potency
and stability” of the medication. Id. ¶ 24. Out of concerns
about parcel theft, some Plaintiffs have had to wait at
home on the days their medications are scheduled for
delivery, resulting in missed doctor appointments and
missed days of work. Id. ¶¶ 46, 51. Those who have opted
to pick up their prescriptions from CVS Pharmacies have
also encountered problems. For some, the closest CVS
Pharmacy is many miles away. Id. ¶ 34. Some have had
to make multiple trips to and from a pharmacy to deal

28a
with incorrectly filled prescriptions. Id. Others have
experienced “CVS personnel shout[ing] the name of their
HIV/AIDS Medications across the room in front of other
customers, raising severe privacy concerns.” Id. ¶ 76.
Many Plaintiffs have reached out to CVS in an attempt to
resolve their problems, only to encounter bureaucracy
and long wait-times. See id. ¶¶ 29, 35, 40, 91. Reportedly,
CVS representatives also “appear to have no specialized
knowledge about HIV/AIDS Medications or the concerns
of HIV patients.” Id. ¶¶ 39, 48, 85.
In short, Plaintiffs allege, the Program forces them
into a “potentially life-threatening” decision: to either
“forego essential counseling from an expert pharmacist at
a community pharmacy and face risks to their privacy that
are inherent in the Program,” or “pay hundreds or
thousands of dollars out-of-pocket monthly for their
medications at their non-CVS community pharmacy.” Id.
¶ 69. Thus, the Program “constitutes a material and
discriminatory change in [Plaintiffs’] coverage, a
significant reduction in or elimination of prescription drug
benefits, and a violation of the standards of good health
care and clinically appropriate care for HIV/AIDS
patients.” Id. ¶ 78.
Many Plaintiffs have attempted to opt-out of the
Program, but their requests were denied. Id. Some have
made formal, written opt-out requests, appealed the
denial of those requests, and ultimately received “final
determinations” affirming the denials. See id. ¶ 27.
Plaintiffs seek to represent the following class:
All persons currently or previously enrolled
in or covered by a health plan since January
1, 2015 in which the prescription drug

29a
benefit is or was administered by CVS
Caremark, and who: (i) obtained or may
obtain HIV/ADIS Medications; and (ii) have
been or may in the future be required to
participate in the Program with no right to
opt-out or notice thereof, but not including
individual claims for personal injury or
bodily harm.
Id. ¶ 131.
Plaintiffs filed their original class action complaint on
February 16, 2018. See Docket No. 1. After CVS and
Amtrak each filed a motion to dismiss, Plaintiffs filed the
operative First Amended Class Action Complaint on June
18, 2018. See Docket No. 75. Each Defendant filed a
motion to dismiss thereafter. See Docket Nos. 87 (“CVS
Mot.”), 89 (“Amtrak Mot.”), 97 (“Lowe’s Mot.”), 113
(“Time Warner Mot.”).
II. LEGAL STANDARD
To survive a motion to dismiss under Federal Rule of
Civil Procedure 12(b)(6), a complaint must contain a
“short and plain statement of the claim showing that the
pleader is entitled to relief” to give the defendant “fair
notice” of what the claims are and the grounds upon which
they rest. See Fed. R. Civ. P. 8(a)(2); Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 555 (2007). A complaint must
contain sufficient factual allegations, accepted as true, “to
state a claim to relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). “A claim has
facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id.
“The plausibility standard is not akin to a ‘probability

30a
requirement,’ but it asks for more than a sheer possibility
that a defendant has acted unlawfully.” Id. (quoting
Twombly, 550 U.S. at 556).
If it grants a motion to dismiss, a court is generally
required to allow the plaintiff leave to amend, even if no
request to amend the pleading was made, unless
amendment would be futile. Cook, Perkiss & Liehe, Inc.
v. N. Cal. Collection Serv. Inc., 911 F.2d 242, 246–47 (9th
Cir. 1990). In determining whether amendment would be
futile, the court examines whether the complaint could be
amended to cure the defect requiring dismissal “without
contradicting any of the allegations of [the] original
complaint.” Reddy v. Litton Indus., Inc., 912 F.2d 291,
296 (9th Cir. 1990).
III. CVS’S MOTION TO DISMISS
A. Group Pleading Against CVS Defendants
Plaintiffs have named CVS Pharmacy, Inc.,
Caremark, LLC., and Caremark California Specialty
Pharmacy, LLC as defendants in this action and
collectively termed them “CVS Caremark.” FAC at 1.
The complaint asserts that the “various CVS/Caremark
Defendants act as agents of one another and operate as a
single entity for purposes of administering pharmacy
benefits and providing prescription drugs to health plans
and health plan members,” id. ¶ 14, and for the most part
makes its allegations against “CVS Caremark” generally.
CVS contends that the complaint engages in
undifferentiated pleading that fails to make clear what
claims are being alleged against each defendant. CVS
Mot. at 7.
As an initial matter, Plaintiffs are incorrect to state
that “the prohibition against group pleading only applies

31a
in cases of fraud.” Docket No. 115 (“Opp.”) at 3. While
Federal Rule of Civil Procedure 9(b) sets forth a
heightened pleading requirement in fraud cases, the
general pleading standard articulated in Rule 8(a)
requires a complaint to “provide sufficient notice to all of
the Defendants as to the nature of the claims being
asserted against them.” Adobe Sys. Inc. v. Blue Source
Grp., Inc., 125 F. Supp. 3d 945, 964 (N.D. Cal. 2015); see
Gauvin v. Trombatore, 682 F. Supp. 1067, 1071 (N.D. Cal.
1988) (finding that a complaint in which “all defendants
are lumped together in a single, broad allegation” failed
to satisfy the notice requirement of Rule 8(a)(2)).
Plaintiffs have painted their allegations with a broad
brush. The majority of their allegations are made against
the collective “CVS Caremark,” without specifying what
role each CVS Defendant played. Their claim that the
CVS Defendants “act as agents of one another and
operate as a single entity” is conclusory and unsupported
by factual allegations. At no point does the complaint
describe what kind of entities CVS Pharmacy, Inc. and
Caremark, LLC are or generally what type of business
they conduct. Nevertheless, the complaint does make
clear the role Caremark California Specialty Pharmacy,
LLC plays in filling prescriptions by mail. See FAC ¶ 1.
And, construing the pleadings in the light most favorable
to Plaintiffs, it is also sufficiently clear from the complaint
that Plaintiffs intend the allegations regarding the “CVS
Caremark” collective to apply to all the CVS defendants.
See Adobe Sys., 125 F. Supp. 3d at 965 (finding that
defendants were put on sufficient notice where “the
gravamen of Adobe’s allegations . . . are that all the
Defendants infringed on Adobe’s trademarks and
copyrights”). Finally, the complaint is specific and

32a
detailed as to what unlawful actions “CVS Caremark” has
allegedly engaged in, and therefore put CVS Defendants
on notice of “what conduct is at issue.” Id.
On balance, Plaintiffs have done just enough to meet
the pleading requirements of Rule 8. 2
B. ACA Discrimination Claim
Count One of the complaint asserts that CVS’s alleged
conduct violates the anti-discrimination provision at
Section 1557 of the ACA. Section 1557 provides that “an
individual shall not, on the ground prohibited under[,
inter alia,] section 504 of the Rehabilitation Act of 1973
(29 U.S.C. § 794), be excluded from participation in, be
denied the benefits of, or be subjected to discrimination
under, any health program or activity, any part of which
is receiving Federal financial assistance.” 42 U.S.C.
§ 18116(a). In turn, § 504 of the Rehabilitation Act
provides that “[n]o otherwise qualified individual with a
disability in the United States . . . shall, solely by reason
of her or his disability, be excluded from the participation
in, be denied the benefits of, or be subjected to
discrimination under any program or activity receiving
Federal financial assistance.” 29 U.S.C. § 794(a).
CVS puts forth two primary reasons why Plaintiffs’
ACA claim should be dismissed. Each is addressed below.
1. Offered Benefit
First, CVS argues that Plaintiffs are not entitled to the
CVS protests that Plaintiffs’ claims arise out of a pharmacy benefit
management service’s (“PBM”) design of a prescription plan, and that
two of the CVS Defendants are not PBMs but rather pharmacies.
CVS Mot. at 8. However, these disputes over questions of fact are not
appropriate for resolution on a motion to dismiss.

2

33a
benefit which they claim is being denied—to be able to
purchase specialty medication from non-CVS pharmacies
at in-network prices. See CVS Mot. at 11. In fact,
Plaintiffs were specifically told that their plans do not
allow them to do so. See, e.g., FAC ¶¶ 21–22, 40. CVS
reasons that Plaintiffs could not have been unlawfully
denied a benefit to which they were not entitled in the first
place. This argument fails, however, because it is at odds
with the text of the ACA and the Rehabilitation Act.
Both § 1557 and § 504 use identical, disjunctive
language to describe the conduct they proscribe. See 42
U.S.C. § 18116(a) (“be excluded from participation in, be
denied the benefits of, or be subjected to discrimination
under . . .”) (emphasis added); 29 U.S.C. § 794(a) (“be
excluded from the participation in, be denied the benefits
of, or be subjected to discrimination under . . .”) (emphasis
added).
Courts have understood this disjunctive
language, as well as substantially similar language in the
ADA, to bar the operation of a program in a
discriminatory manner even when a specific offered
benefit is not being denied. See Crowder v. Kitagawa, 81
F.3d 1480, 1483 (9th Cir. 1996) (rejecting as “flaw[ed] . . .
the assumption that no violation of the ADA occurs unless
a service or benefit of the state is provided in a manner
that discriminates against disabled individuals” given the
“insertion of ‘or’ between exclusion from/denial of benefits
on the one hand and discrimination by a public entity on
the other” in the statutory text); Halpern v. Wake Forest
Univ. Health Scis., No. 1:09CV00474, 2010 WL 3057597,
at *15 n.23 (M.D.N.C. July 30, 2010) (“The disjunctive
nature of the two prongs of the third element effectively
recognizes that Section 504 creates two different types of
claims: “a plaintiff must show that she was [1] excluded

34a
from participation in, or denied the benefits of, a program
or service offered by a public entity, or [2] subjected to
discrimination by that entity.”), aff’d, 669 F.3d 454 (4th
Cir. 2012); Brewer v. Wisconsin Bd. of Bar Examiners,
No. 04-C-0694, 2006 WL 3469598, at *5 (E.D. Wis. Nov.
28, 2006) (“Brewer’s claim is not just that she was
excluded from, or denied access to, the Board’s services,
but also that she was otherwise discriminated against by
the Board. The language of the [ADA] is disjunctive; it
prohibits exclusion from participation, denial of benefits,
or discrimination against by reason of disability.”).
Accordingly, Plaintiffs’ ACA claim is not doomed just
because they have not alleged that their benefit plan
entitles them to obtain HIV/AIDS medication for
favorable prices at non-CVS pharmacies. They may
proceed on the theory that the benefit plan operates in a
way that discriminates against them by reason of
disability. See, e.g., FAC ¶ 92 (alleging that “HIV/AIDS
patients are particularly hard hit and discriminated
against by [the benefit plan] requiring patients to obtain
their specialty medications exclusively under the
Program”).
2. Disparate Impact/Meaningful Access
CVS next contends that Plaintiffs fail to sufficiently
allege that the Program discriminates against Plaintiffs
on the basis of their HIV/AIDS status.
No consensus has yet emerged as to the standard for
assessing ACA anti-discrimination claims. See Briscoe v.
Health Care Serv. Corp., 281 F. Supp. 3d 725, 737 (N.D.
Ill. 2017). At least one court has held that “§ 1557 creates
a ‘health-specific’ anti-discrimination claim ‘subject to a
singular standard, regardless of a plaintiff's protected

35a
class status.’” Id. (quoting Rumble v. Fairview Health
Servs., No. 14-CV-2037 SRN/FLN, 2015 WL 1197415, at
*11 (D. Minn. Mar. 16, 2015)). Others have concluded that
§ 1557 imports the standard corresponding to the civil
rights statute on which the plaintiff’s ACA claim is
premised. See id.; Se. Pennsylvania Transp. Auth. v.
Gilead Scis., Inc., 102 F. Supp. 3d 688, 698 (E.D. Pa. 2015).
Thus, an ACA claim based on allegations of § 504
violations would be analyzed under the substantive
standard for § 504 cases. Both parties here agree that
§ 504 case law serves as a useful guide for evaluating what
kind of disability-based discrimination violates the ACA,
and neither has suggested applying a standard different
from that applicable under Section 504. See CVS Mot. at
8; Opp. at 5. Applying the § 504 standard here also
comports with “Health and Human Services
Department’s rules emphasiz[ing] that the [ACA]
nondiscrimination provision ‘is not intended to apply
lesser standards for the protection of individuals from
discrimination than the standards under . . . Section 504.’”
In re Express Scripts/Anthem ERISA Litig., 285 F. Supp.
3d 655, 687 (S.D.N.Y. 2018) (quoting 81 Fed. Reg. 31381
(2016)).
Section 504 protects persons with disabilities from
both intentional and disparate-impact discrimination. 3
Crowder, 81 F.3d at 1484 (citing Alexander v. Choate, 469
U.S. 287, 295 (1985)). CVS points out, and Plaintiffs
appear to concede, that they are not alleging an
The Office for Civil Rights in the Department of Health and Human
Services also promulgated a rule “interpret[ing] Section 1557 as
authorizing a private right of action for claims of disparate impact
discrimination on the basis of any of the criteria enumerated in” that
section. 81 Fed. Reg. 31375, 31440 (May 18, 2016).

3

36a
intentional discrimination claim under § 504. 4 See Opp. at
9 (characterizing CVS’s intentional discrimination
argument as “a non sequitur, as Plaintiffs in this action
allege a disparate impact on HIV/AIDS patients”)
(emphasis in original).
As for disparate impact, the Supreme Court has
rejected “the boundless notion that all disparate-impact
showings constitute prima facie cases under § 504”; an
instance of disparate impact is actionable only where it
“effectively denies otherwise qualified handicapped
individuals the meaningful access” to programs or
benefits to which they are entitled. Alexander, 469 U.S.
at 299–301; see Crowder, 81 F.3d at 1484 (explaining that
Alexander “determined it more useful to assess whether
disabled persons were denied ‘meaningful access’” to
benefits in order to identify discrimination cognizable
under § 504). Thus, to state a § 504 disparate impact
claim, Plaintiffs must show (1) that the Program’s
restrictions had a disparate impact on enrollees with
HIV/AIDS, and (2) that the impact was so significant as
to deny those enrollees “meaningful access” to their
benefits. Plaintiffs’ allegations fail in both respects.
First, Plaintiffs have not sufficiently alleged that
enrollees with HIV/AIDS are disparately impacted by the
Program’s restrictions relative to other enrollees. As
CVS points out, Plaintiffs themselves acknowledge that
Under their Unruh Act claim, however, Plaintiffs contend that they
“do allege actual [intentional] discrimination.” Opp. at 14 (emphasis
in original). The allegations they identify, however, would be
insufficient to support an intentional discrimination claim under § 504
for the same reasons they fail under the Unruh Act; the allegations
are wholly conclusory and undermined by the complaint’s
descriptions of accommodations CVS made to assist Plaintiffs in
accessing their HIV/AIDS medications. See Part III.D, infra.

4

37a
“all specialty medicines must be filled through the
Program,” not just those that treat HIV/AIDS. FAC ¶ 43
(emphasis added). These specialty medicines treat a wide
variety of conditions in addition to HIV/AIDS. See FAC
¶ 94 (listing medicines and conditions). In a recent
decision, the Western District of Tennessee found no
disparate impact under the ACA on allegations essentially
the same as those made here—that employer health plans
discriminated against individuals with HIV/AIDS by
classifying their HIV/AIDS medication as “specialty
medication” that can only be obtained by mail or at
designated in-network pharmacies. See Doe v. Bluecross
Blueshield of Tennessee, Inc., No. 217CV02793TLPCGC,
2018 WL 3625012, at *5–8 (W.D. Tenn. July 30, 2018). The
Bluecross Blueshield court observed that the specialty
medications “list includes medications for conditions that
are not disabilities under the ADA or the Rehab Act,” so
“plan enrollees who are not disabled yet take specialty
medications subject to the Program must endure the
same procedural and logistical hurdles that HIV/AIDS
patients face.” Id. at *8. Here, as in Bluecross Blueshield,
this fact is “fatal to Plaintiff[s’] claim” because it means
they cannot allege that they were treated differently on
the basis of their HIV/AIDS status. Id. Other cases are
in accord. See E.S. by & through R.S. v. Regence
BlueShield, No. C17-01609 RAJ, 2018 WL 4566053, at *3
(W.D. Wash. Sept. 24, 2018) (holding that plaintiffs with
hearing impairments failed to show disparate impact
based on their health plan’s exclusion from coverage of
hearing loss treatment because the “coverage exclusion is
applied to all insureds, whether disabled or not”); In re
Express Scripts/Anthem ERISA Litig., 285 F. Supp. 3d
at 686–88 (finding no disparate impact under the ACA
where plaintiffs alleged that their health plan set inflated

38a
prices for HIV drugs designated as “specialty
medications” but did not allege that the rates they
actually paid for their HIV medication were higher than
for other, non-HIV related drugs); Gilead Scis., Inc., 102
F. Supp. 3d at 700 (holding that plaintiffs could not show
that a drug manufacturer’s pricing scheme that allegedly
overcharged for Hepatitis C drugs had a disparate impact
based on disability because there were “no allegations
that [the manufacturer] changes the prices of its drugs
depending upon whether the potential consumer has
Hepatitis C”). 5 Given the breadth of the drugs subject to
the Program’s restrictions, Plaintiffs cannot show that
they are discriminated against as HIV/AIDS patients or
as patients with disabilities.
Plaintiffs respond that, “[d]ue to the complex nature
of their disease and medications, . . . . patients with HIV
and AIDS are disproportionately impacted by the
Program . . . even compared to patients prescribed nonHIV/AIDS specialty medications.” FAC ¶ 92. The
challenges particular to individuals with HIV/AIDS
include “stigma and discrimination,” a “high number of
known adverse side effects and adverse drug interactions
associated with HIV/AIDS Medications that need to be
monitored,” the “psychological and social issues involved”
with living with HIV/AIDS, the “continua[l] mutat[ion]”
of the HIV/AIDS virus necessitating timely changes in
treatment, and the sensitivity of HIV/AIDS medications
to “[s]torage at high temperatures.” Id. ¶¶ 24, 74, 80, 86,
Plaintiffs argue that “Gilead was decided before the federal
regulations authorizing disparate impact claims under the ACA were
issue” and thus inapposite. Opp. at 9. However, Gilead nevertheless
applied the disparate impact framework articulated in Alexander,
which continues to guide courts in analyzing § 504 disparate impact
claims. See Gilead, 102 F. Supp. 3d at 699–700 & n.4.

5

39a
89. As a result, Plaintiffs argue that forcing enrollees with
HIV/AIDS to obtain their medications either in-person
from CVS pharmacists untrained to provide HIV/AIDSrelated counseling or via mail impacts them in a way that
is “unique.” Opp. at 7.
The Court does not discount the struggles individuals
with HIV/AIDS continue to experience in their daily lives
or the difficulties Plaintiffs face in obtaining their
medications through the Program. But Plaintiffs have
“alleged no statistical evidence sufficient to show that
Defendant’s Program has a ‘significantly adverse or
disproportionate impact’ on . . . HIV/AIDS patients.”
Bluecross Blueshield, 2018 WL 3625012, at *8. Nor does
the complaint compare the Program’s impact on
HIV/AIDS patients with its impact on non-HIV/AIDS
patients in any other way. In fact, Plaintiffs acknowledge
that HIV/AIDS is not the only condition that is
stigmatized. See FAC ¶ 93 (“[The Program] is not
appropriate for all patients with complex, chronic
conditions, especially illnesses subject to social stigma
where privacy is a significant concern like
HIV/AIDS . . . .”) (emphases added).
For example,
Plaintiffs note that drugs for treating opioid dependency
and addiction are also included in the specialty medicine
formulary, and the ADA “aims to protect [individuals
recovering from addiction] from the stigma associated
with their addiction.” Jones v. City of Boston, 752 F.3d
38, 58 (1st Cir. 2014) (citing 42 U.S.C. § 12114(a), (b)).
Thus, the allegations in the complaint are not sufficient to
support Plaintiffs’ claim that the Program’s impact on
enrollees with HIV/AIDS is “unique.” Rodde v. Bonta,
357 F.3d 988, 998 (9th Cir. 2004) (observing that
discrimination is actionable under the “meaningful

40a
access” standard where it “disproportionately burdens
the disabled because of their unique needs”) (emphasis
added). The Bluecross Blueshield court rejected a
disparate impact theory similarly based on allegations
that “[c]ompared to nondisabled patients who received
non-HIV/AIDS specialty medications,” patients with
HIV/AIDS have to endure “the social stigma and
discrimination associated with being HIV/AIDS positive,”
“the potentially serious effect of missing a dose of
HIV/AIDS medication, the potential for heat damage to
HIV/AIDS medications, and . . . a heightened need for
access to in-person consultations with community
pharmacists.” 2018 WL 3625012, at *5, *8.
Second, even accepting that the Program does
disproportionately impact enrollees with HIV/AIDS, that
impact is not so significant as to constitute a denial of
“meaningful access” to Plaintiffs’ prescription drug
benefits. The Supreme Court’s decision in Alexander,
which established the “meaningful access” standard, is
instructive. Alexander was an action brought under § 504
in response to the Tennessee Medicaid program’s
decision, in response to budget pressures, to reduce from
20 to 14 the number of inpatient hospital days that
Tennessee Medicaid would cover for a Medicaid recipient
annually. 469 U.S. at 289. The plaintiffs contended that
the 14-day limitation would have a discriminatory effect
on disabled individuals because statistical evidence
showed that a higher percentage of Medicaid patients
with disabilities required more than 14 days of inpatient
care that non-disabled patients. Id. at 290. The Supreme
Court denied the claim. It reasoned that because “both
classes of users [were] subject to the same durational
limitation,” patients with disabilities, just like non-

41a
disabled patients, would still “benefit meaningfully from
the coverage they will receive under the 14-day rule.” Id.
at 302.
The Alexander Court went on to reject as “simply
unsound” the plaintiffs’ suggestion that “their greater
need for prolonged inpatient care means that, to provide
meaningful access to Medicaid services, Tennessee must
single out the handicapped for more than 14 days of
coverage.” Id. As the Court explained, “Medicaid
programs do not guarantee that each recipient will
receive that level of health care precisely tailored to his or
her particular needs” but rather provide “a particular
package of health care services” with “the general aim of
assuring that individuals will receive necessary medical
care.” Id. at 303. Alexander concluded that “Section 504
does not require the State to alter this definition of the
benefit being offered simply to meet the reality that the
handicapped have greater medical needs”; it “seeks to
assure evenhanded treatment and the opportunity for
handicapped individuals to participate in and benefit from
programs receiving federal assistance” rather than to
“guarantee the handicapped equal results.” Id. at 303–04
(citation omitted).
Likewise here, § 504 does not require CVS to alter the
terms of their benefit plants to provide the Plaintiffs
“meaningful access” to specialty medications at favorable
prices outside the Program’s network. Like the 14-day
inpatient coverage limitation in Alexander, the Program
is “neutral on its face”—its restrictions apply on the basis
of the type of medication sought and “do[] not distinguish
between” enrollees based on disability. Id. at 302. And
although the Program limits the ways in which enrollees
can obtain their specialty medication, it “does not exclude

42a
[them] from or deny them the [prescription drug]
benefits” provided under their plan. Plaintiffs are able to
access their HIV/AIDS drugs at in-network prices as long
as they go to a CVS Pharmacy or subscribe to delivery by
mail. Id. Plaintiffs seek exemption from the Program’s
restrictions on the ground that HIV/AIDS patients have
a “greater need” for ready access to their medications, but
they do not allege that their benefit plans guarantee them
the “level of health care precisely tailored to [their]
particular needs.” Id. at 302–03.
At bottom, Plaintiffs are seeking to change the terms
of their benefit plan so that they (and not other plan
enrollees) can obtain their HIV/AIDS medication from
non-CVS pharmacies at in-network prices. Alexander
makes clear that “Section 504 does not require the
[benefit provider] to alter this definition of the benefit
being offered simply to meet the reality that [Plaintiffs]
have greater medical needs.” Id. at 303. Rewriting the
benefit plan in this way would be “virtually unworkable.”
Id. at 308. “Before taking any across-the-board action
affecting [benefit plan enrollees], an analysis of the effect
of the proposed change” on the enrollees would have to be
performed, “broken down by class of handicap” or type of
disability, that “balance[s] the harms and benefits to
various groups to determine, on balance, the extent to
which the action disparately impacts the handicapped.”
Id. The logical extension of Plaintiffs’ discrimination
challenge could threaten the basic structure of Health
Maintenance Organizations (“HMOs”) and Preferred
Provider Organization insurance plans (“PPOs”). HMOs
and PPOs are able to provide insurance coverage at
favorable rates by requiring enrollees to access care from
a defined set of in-network physicians. See California v.

43a
Sutter Health Sys., 84 F. Supp. 2d 1057, 1062 (N.D. Cal.),
aff’d, 217 F.3d 846 (9th Cir. 2000). If enrollees could avail
themselves of out-of-network providers at in-network
rates by contending that in-network care is inferior for
any particular disability, then the basis of the HMO/PPO
model would be undermined. “[T]here is nothing in the
[ACA] or its legislative history to suggest that this type of
expansion was Congress’ intent when enacting the
[statute].” Regence BlueShield, 2018 WL 4566053, at *3
(rejecting plaintiffs’ request under § 1557 to remove a
coverage exclusion for hearing loss treatments under
their health plan because § 504 does not “require insurers
to offer coverage for all [medical needs] regardless of the
health condition, injury, or illness”). CVS “need not
redefine its [benefits] program to eliminate . . . limitations
on [prescription drug] coverage.” Alexander, 469 U.S. at
308–09.
Further, the obstacles Plaintiffs have to surmount to
obtain their HIV/AIDS medication under the Program,
while understandably a source of frustration and stress,
do not rise to a level that deprives Plaintiffs of
“meaningful access” to their benefits. Cases finding a
denial of meaningful access have required significantly
more severe deprivations. See, e.g., Crowder, 81 F.3d at
1484–85 (Hawaii law requiring all dogs, including guide
dogs, entering the state to be quarantined “effectively
preclude[d] visually-impaired persons from using a
variety of public services”) (emphasis added); Rodde, 357
F.3d at 991, 997 (upholding a preliminary injunction
preventing the closure of a hospital that “provide[d]
services disproportionately required by the disabled and
available nowhere else in the County”) (emphasis added).
The Court agrees with the observation in BlueCross

44a
BlueShield: “Although the Court understands the
inconvenience facing that HIV/AIDS patients like
Plaintiff as a result of Defendant’s policy, interpreting
Section 504 of the Rehab Act to reach the claims in the
Amended Complaint would flout the Supreme Court’s
cautionary instructions in Alexander.” 2018 WL 3625012,
at *8. Accordingly, CVS’s motion to dismiss Plaintiffs’
ACA claim is GRANTED without leave to amend. 6
C. ADA Discrimination Claim
Title III of the ADA provides that “[n]o individual
shall be discriminated against on the basis of disability in
the full and equal enjoyment of the goods, services,
facilities, privileges, advantages, or accommodations of
any place of public accommodation by any person who
owns, leases (or leases to), or operates a place of public
accommodation.” 42 U.S.C. § 12182(a). To prevail on a
discrimination claim under Title III, a plaintiff must show
that: (1) he is disabled within the meaning of the ADA;
(2) the defendant is a private entity that owns, leases, or
operates a place of public accommodation; and (3) the
plaintiff was denied public accommodations by the
defendant because of his disability. Molski v. M.J. Cable,
Inc., 481 F.3d 724, 730 (9th Cir. 2007). The parties dispute
whether Plaintiffs have sufficiently pleaded the second
and third elements. A review of Plaintiffs’ claim shows
that they have not.

Because Plaintiffs failed to establish they have been denied
meaningful access to their benefits, the Court need not reach CVS’s
separate argument that Plaintiffs have also failed to sufficiently plead
that CVS “receiv[es] Federal financial assistance,” as required by the
ACA. 42 U.S.C. § 18116(a).

6

45a
1. “Place of Public Accommodation”
CVS argues that the alleged discrimination in this case
arises from the administration of Plaintiffs’ benefit plan,
which is not a “place of public accommodation” subject to
the ADA. CVS Mot. at 14. Plaintiffs respond that it is the
community pharmacies to which CVS is denying access,
and the ADA expressly designates pharmacies as places
of public accommodation. Opp. at 11 (citing 42 U.S.C.
§ 12181(7)(F)). Plaintiffs’ argument is foreclosed by
Ninth Circuit law.
In Weyer v. Twentieth Century Fox Film Corp., the
plaintiff sued the insurance company administering the
disability benefits policy offered by her employer because
the policy allegedly provided more benefits for physical
disabilities than for mental disabilities. 198 F.3d 1104,
1107 (9th Cir. 2000). The Ninth Circuit held that the
plaintiff failed to establish the “place of public
accommodation” element of a Title III claim. Id. at 1114.
The court explained that although, in a literal sense, “an
insurance office is a place where the public generally has
access,” the case at its core was a “dispute . . . over the
terms of a contract that the insurer markets through an
employer, [which] is not what Congress addressed in the
public accommodations provisions.” Id. Citing precedent
from the Third and Sixth Circuits, Weyer concluded that
“[a] benefit plan offered by an employer is not a good
offered by a place of public accommodation.” Id. at 1115
(quoting Ford v. Schering-Plough Corp., 145 F.3d 601,
612–13 (3d Cir. 1998); citing Parker v. Metropolitan Life
Ins. Co., 121 F.3d 1006, 1010–11 (6th Cir. 1997) (en banc)).
Plaintiffs’ claims are unavailing for the same reason.
Although Plaintiffs attempt to reframe the argument to
cast community pharmacies as the “places of public

46a
accommodation” at issue, CVS does not “bar Plaintiffs
and Class Members’ access to” those pharmacies. Opp. at
13. Rather, the terms of the benefit plan administered by
CVS force Plaintiffs to pay higher prices for specialty
medications if they choose to fill their prescriptions at
community pharmacies. Thus, it is of no moment that the
Plaintiffs allege CVS “exercise[s] their direct and
contractual control over establishing which pharmacies
are available to Plaintiffs,” id., because “Title III does not
address the terms of the policies that [a benefit plan
administrator] sells,” Weyer, 198 F.3d at 1115. It is the
term of the insurance plan overall that is at issue here. See
Bluecross Blueshield, 2018 WL 3625012, at *10
(dismissing Title III claim because it was “based on the
terms of BCBST’s coverage for specialty medications, not
the availability of coverage for those medications—even
when the effect of those terms is that Plaintiff may not
obtain his HIV/AIDS medication from a community
pharmacy without incurring exorbitant costs”).
2. “On the Basis of Disability”
The complaint also fails to adequately allege that
Plaintiffs were discriminated against on the basis of their
disability. The ADA “protect[s] disabled persons not just
from intentional discrimination but also from
thoughtlessness, indifference, and benign neglect.”
Lentini v. California Ctr. for the Arts, Escondido, 370
F.3d 837, 846 (9th Cir. 2004) (citation and internal
quotation marks omitted). Actionable discrimination can
therefore take the form of “outright intentional exclusion”
as well as “the discriminatory effects of . . . failure to make
modifications to existing facilities and practices,
exclusionary qualification standards and criteria,
segregation, and relegation to lesser services, programs,

47a
activities, benefits, jobs, or other opportunities.” Id. at
846–47 (citing 42 U.S.C. § 12182(b)(2)(A)(ii); 42 U.S.C.
§ 12101(a)(5)).
Plaintiffs have not shown that the Program has a
discriminatory effect on them that is cognizable under the
ADA. The Ninth Circuit in Weyer held, in line with seven
other circuits, that “there is no discrimination under the
[ADA] where disabled individuals are given the same
opportunity as everyone else, so insurance distinctions
that apply equally to all employees cannot be
discriminatory.” Weyer, 198 F.3d at 1116. Thus, a plan
administrator that does not “vary the terms of its plan
depending on whether or not the employee was disabled”
does not violate the ADA. Id. (quoting E.E.O.C. v. CNA
Ins. Companies, 96 F.3d 1039, 1044 (7th Cir. 1996)).
Because the Program’s restrictions apply equally to all
enrollees, whether or not they have HIV/AIDS and
whether or not they have a disability within the meaning
of the ADA, the same rationale compels dismissal of
Plaintiffs’ claims in this case. 7
Plaintiffs counter that there is evidence the Program
intentionally discriminates on the basis of disability
because “the reality is that all but two of the hundreds of
medications subject to the Program treat disabilities.”
Opp. at 14. In other words, only disability medications are
subject to the Program’s restrictions. The complaint
supports this contention by listing all of the drugs on
This ADA analysis is consistent with that for disability-based
discrimination under the ACA and § 504. See Part III.B, supra; Zukle
v. Regents of Univ. of California, 166 F.3d 1041, 1045 n.11 (9th Cir.
1999) (“There is no significant difference in analysis of the rights and
obligations created by the ADA and the Rehabilitation Act.”).
7

48a
CVS’s specialty formulary and explaining why the
conditions they treat qualify as “disabilities” under the
ADA. See FAC ¶ 94. But, even assuming these
explanations are correct, 8 Plaintiffs undermine their own
argument by conceding that there are at least two drugs
on the formulary that do not treat a disability. See id. ¶ 94
n.8. Plaintiffs believe that CVS included the two outlier
drugs as a “fig leaf to avoid an ADA or ACA violation,” an
impermissible act of “subterfuge to evade the purposes of
[Title III]” that is proscribed by 42 U.S.C. § 12201(c).
Opp. at 14. In making this allegation, however, Plaintiffs
offer only a formulaic recitation of the language of
§ 12201(c) and the bare assertion that “CVS cannot
seriously contend that a disability-based distinction does
not exist with regard to the Program.” Opp. at 14.
Without more specific factual allegations supporting the
inference that CVS intentionally compiled the specialty
formulary to discriminate against persons with
disabilities while evading accountability under the ADA,
Plaintiffs have not made a sufficient showing that the
Program discriminates on the basis of disability. See
Twombly, 550 U.S. at 555 (a pleading consisting of “labels
and conclusions” or “a formulaic recitation of the elements
of a cause of action” cannot survive a motion to dismiss);
Leonard F. v. Israel Disc. Bank of New York, 199 F.3d 99,
104 (2d Cir. 1999) (holding that “the subterfuge clause in
[§ 12201(c)] should be construed . . . to require an intent
to evade”).
Because the terms of Plaintiffs’ benefit plan do not
constitute “a place of public accommodation,” a required
CVS cites a number of cases in which courts have found that
conditions treated by specialty medication subject to the Program are
not per se disabilities under the ADA. See Docket No. 118 at 7 n.8.
8

49a
element of a Title III claim, granting Plaintiffs leave to
amend “would be futile” even if they can establish through
amendment that CVS discriminated against them on the
basis of disability. Cervantes v. Countrywide Home
Loans, Inc., 656 F.3d 1034, 1041 (9th Cir. 2011); see
Molski, 481 F.3d at 730 (listing elements of Title III
claim). Accordingly, CVS’s motion to dismiss Plaintiffs’
ADA claim is GRANTED without leave to amend.
D. California Unruh Civil Rights Act Claim
The California Unruh Civil Rights Act provides that
all persons within the State of California are “entitled to
the full and equal accommodations, advantages, facilities,
privileges, or services in all business establishments of
every kind whatsoever.” Cal. Civ. Code § 51(b). The
Unruh Act expressly incorporates the ADA by providing
that a “violation of the right of any individual under the
federal Americans with Disabilities Act . . . shall also
constitute a violation of this section.” Id. § 51(f).
Otherwise, only facial or intentional discrimination is
actionable under the Unruh Act. The Act generally “does
not extend to practices and policies that apply equally to
all persons.” Greater Los Angeles Agency on Deafness,
Inc. v. Cable News Network, Inc., 742 F.3d 414, 425 (9th
Cir. 2014) (quoting Turner v. Ass’n of Am. Med. Colls.,
167 Cal. App. 4th 1401, 1408 (2008)). “Thus, to establish a
violation of the Unruh Act independent of a claim under
the [ADA], [a plaintiff] must ‘plead and prove intentional
discrimination in public accommodations in violation of
the terms of the Act.” Id. (emphasis added).
As explained above, Plaintiffs have failed to state a
claim under the ADA. Therefore, to state an Unruh Act
claim, they must plausibly allege intentional
discrimination on the part of CVS, which in this context

50a
means “willful, affirmative misconduct . . . more than the
disparate impact of a facially neutral policy.” Id. (citation
and internal quotation marks omitted). Plaintiffs have not
met that standard. They can point to only two allegations
of intentional discrimination in the complaint, both of
which are conclusory and therefore insufficient to meet
the pleading standards of Rule 8(a). See FAC ¶ 114
(“Defendants’ intentionally discriminatory actions have
denied Plaintiffs and members of the Class full and equal
enjoyment of . . . prescription drug benefit.”); ¶ 153 (“By
implementing the Program . . . the CVS Caremark
Defendants have specifically and intentionally targeted
individuals on the basis of a particular disability and
affirmatively discriminated against such persons on the
basis of their disability.”).
What is more, the allegations of intentional
discrimination are undermined by references in the
complaint to instances where CVS made accommodations
or assisted Plaintiffs in accessing their prescription drug
benefits. For example, a “CVS Caremark gave [Plaintiff
John Doe Three] a one-time exception” from the
Program’s restrictions “and allowed his [community]
pharmacy to fill his HIV/AIDS Medications,” FAC ¶ 43,
and “CVS Caremark sen[t] a same day courier with
[Plaintiff John Doe Five’s] HIV/AIDS medications” when
he did not receive his original order, id. ¶ 60. “That
Defendants provided some, but not all, accommodations
to Plaintiff tends to negate an inference that Defendants’
conduct was purposefully discriminatory.” WilkinsJones v. Cty. of Alameda, 859 F. Supp. 2d 1039, 1052 (N.D.
Cal. 2012); see Greater Los Angeles, 742 F.3d at 426
(finding assertions that “CNN intentionally excluded deaf
and hard of hearing individuals from accessing

51a
CNN.com” were “belied by the record” indicating that
CNN offered caption-based services and was prepared to
comply with the FCC’s then-pending captioning rules).
Because Plaintiffs’ ADA claim is dismissed with
prejudice, and Plaintiffs’ conclusory allegations of
intentional discriminations are contradicted by other
allegations in their complaint, CVS’s motion to dismiss
Plaintiffs’ Unruh Act claim is GRANTED without leave
to amend. See United States v. Corinthian Colleges, 655
F.3d 984, 995 (9th Cir. 2011) (leave to amend would be
futile if the deficiencies in a complaint can only be cured
by amendments that “contradict the allegations in the
original complaint”).
E. California Unfair Competition Law Claim
The California UCL prohibits “unlawful, unfair or
fraudulent business act[s] or practice[s].” Cal. Bus. &
Prof. Code § 17200. “Each of these three adjectives
captures a separate and distinct theory of liability.”
Rubio v. Capitol One Bank, 613 F.3d 1195, 1203 (9th Cir.
2010). Here, Plaintiffs explicitly assert that CVS’s actions
violate the “unlawful” prong of the UCL. See FAC ¶ 186.
This coverage under this prong is “broad and sweeping,
and embraces ‘anything that can properly be called a
business practice and that at the same time is forbidden
by law.’” Prescott v. Rady Children’s Hosp.-San Diego,
265 F. Supp. 3d 1090, 1102 (S.D. Cal. 2017) (quoting CelTech Commc’ns v. L.A. Cellular Tel. Co., 20 Cal. 4th 163,
180 (1999)). “By proscribing ‘any unlawful’ business
practice, section 17200 borrows violations of other laws
and treats them as unlawful practices that the unfair
competition law makes independently actionable.” CelTech Commc’ns, 20 Cal. 4th at 180 (citation omitted).
Because Plaintiffs’ predicate ACA, ADA, and Unruh Act

52a
claims all fail, they cannot sustain a claim under the UCL
“unlawful” prong. See Pantoja v. Countrywide Home
Loans, Inc., 640 F. Supp. 2d 1177, 1190 (N.D. Cal. 2009)
(“[S]ince the Court has dismissed all of Plaintiff’s
predicate violations, Plaintiff cannot state a claim under
the unlawful business practices prong of the UCL.”).
Plaintiffs assert one other basis for an “unlawful”
prong claim. They allege that CVS violated 45 C.F.R.
§ 156.122(e)(1), a regulation implementing the ACA,
which provides that a health plan providing “essential
health benefits . . . must allow enrollees to access
prescription drug benefits at in-network retail
pharmacies, unless (i) The drug is subject to restricted
distribution by the U.S. Food and Drug Administration;
or (ii) The drug requires special handling, provider
coordination, or patient education that cannot be provided
by a retail pharmacy.” There is no indication that CVS’s
alleged conduct violates § 156.122(e)(1). Plaintiffs’ benefit
plan does allow them to access their specialty medications
at in-network retail pharmacies—CVS pharmacies. See
FAC ¶ 1. The regulation does not guarantee Plaintiffs’
access to out-of-network pharmacies. Plaintiffs therefore
have not stated a claim under the UCL “unlawful” prong.
In their opposition brief, Plaintiffs also assert that
CVS violated the “unfair” prong of the UCL even though
the complaint did not expressly allege an unfairness
prong claim. CVS urges dismissal of the claim because it
was “not well pled.” CVS Mot. at 18 n.21. However, the
complaint contains an allegation that echoes the legal
standards for assessing UCL unfairness claims. Compare
FAC ¶ 189 (“The gravity of the consequences of the CVS
Caremark Defendants’ conduct . . . outweighs any
justification, motive or reason therefor, and is immoral,

53a
unethical, and unscrupulous, offends established public
policy that is tethered to legislatively declared policies as
set forth in the laws detailed above, or is substantially
injurious to Plaintiffs and other members of the Class.”),
with In re Carrier IQ, Inc., 78 F. Supp. 3d 1051, 1115
(N.D. Cal. 2015) (The analysis under the unfairness prong
“asks whether the alleged business practice is immoral,
unethical, oppressive, unscrupulous or substantially
injurious to consumers and requires the court to weigh
the utility of the defendant’s conduct against the gravity
of the harm to the alleged victim.”) (citation and internal
quotation marks omitted), and Graham v. Bank of Am.,
N.A., 226 Cal. App. 4th 594, 613 (2014) (An unfairness
claim must be “predicated on public policy” which is
“tethered to specific constitutional, statutory or
regulatory provisions.”). Plaintiffs’ allegation in FAC
¶ 189 is “specific enough to give defendants notice of the
particular misconduct . . . so that they can defend against
the charge.” Sanford v. MemberWorks, Inc., 625 F.3d
550, 558 (9th Cir. 2010).
Hence, this case is
distinguishable from Moss v. Infinity Ins. Co., 197 F.
Supp. 3d 1191, 1199 (N.D. Cal. 2016), cited by Defendant.
Plaintiffs’ unfairness claim nevertheless fails on the
merits. “The standard for determining what business acts
or practices are ‘unfair’ under the UCL for consumer
actions remains unsettled.” Graham, 226 Cal. App. 4th at
612. “One line of cases applie[s] a . . . balancing test”
weighing the utility of the defendant’s conduct against the
gravity of the harm to the victim. Id. Another assesses
whether the defendant’s conduct offends a “public
policy . . . tethered to specific constitutional, statutory or
regulatory provisions.” Id. at 613.
Plaintiffs have not met the first test. They allege that

54a
the Program causes them harm in the form of less
convenient access to their prescription medication, and
that Defendants’ decision to enroll Plaintiffs in the
Program was “ultimately motivated by profit.” FAC ¶ 79.
But California courts have generally held that merely
entering into a contract or transaction with for profit does
not make the contract or transaction “immoral, unethical,
oppressive, unscrupulous or substantially injurious to
consumers” for the purposes of the UCL. Smith v. State
Farm Mut. Auto. Ins. Co., 93 Cal. App. 4th 700, 719
(2001); see, e.g., Wayne v. Staples, Inc., 135 Cal. App. 4th
466, 483–84 (2006) (finding no UCL violation where
plaintiff claimed defendant charged an insurance
coverage fee that constituted a 100% markup on its cost
of obtaining the coverage); Searle v. Wyndham
International, Inc., 102 Cal. App. 4th 1327, 1333 (2002)
(not unfair for hotel to assess a mandatory service charge
on guests).
The second test presents a closer question. Plaintiffs
allege that CVS’s conduct “offends established public
policy that is tethered to legislatively declared policies as
set forth in” the ACA, ADA, 45 C.F.R. 156.122(e), and the
Unruh Act. FAC ¶¶ 186, 189. However, Plaintiffs have
failed to show that CVS has violated any of the listed
substantive statutes or regulations. The complaint
elsewhere references the “right to privacy” guaranteed
by “Article I, section 1 of the California Constitution,” and
alleges that “the Program violates Class Members’
inalienable right to privacy by eliminating their choice to
keep their medical condition private, by requiring public
delivery of their medications by someone they do not
know and from CSP personnel who may not be sensitive
to or have extensive knowledge of their condition.” FAC

55a
¶ 116.
To be sure, the protections afforded by article I,
section 1 of the California Constitution extend to an
individual’s medical privacy. 9 For example, the California
Court of Appeal has held that article I, section 1 protects
the confidentiality of medical records. See Bd. of Med.
Quality Assurance v. Gherardini, 156 Cal. Rptr. 55, 61
(Ct. App. 1979), disapproved of on other grounds by
Williams v. Superior Court, 398 P.3d 69 (Cal. 2017). And,
particularly pertinent to this case, the court in Urbaniak
v. Newton affirmed that “disclosure of HIV positive status
may under appropriate circumstances be entitled to
protection under article 1, section 1.” 277 Cal. Rptr. 354,
360 (Ct. App. 1991). But not every disclosure of medical
information violates a patient’s privacy right. “The
California Constitution and the common law set a high bar
for an invasion of privacy claim,” and “[a]ctionable
invasions of privacy must be sufficiently serious in their
nature, scope, and actual or potential impact to constitute
an egregious breach of the social norms underlying the
privacy right.” Low v. LinkedIn Corp., 900 F. Supp. 2d
1010, 1025 (N.D. Cal. 2012) (quoting Hill v. Nat’l
Collegiate Athletic Assn., 865 P.2d 633, 655 (Cal. 1994)).
Only one of Plaintiffs’ allegations makes out a violation
of article I, section 1. According to the complaint,
Plaintiffs “have reported that CVS personnel shouted the
name of their HIV/AIDS Medications across the room in
front of other customers, raising severe privacy concerns
and making it untenable to pick up their medications at a
The California Supreme Court has made clear that “the Privacy
Initiative in article I, section 1 of the California Constitution creates a
right of action against private as well as government entities.” Hill v.
Nat’l Collegiate Athletic Assn., 865 P.2d 633, 644 (Cal. 1994).

9

56a
CVS pharmacy in the future.” FAC ¶ 76. Such
indiscretion on the part of CVS personnel in announcing
to anyone within earshot that Plaintiffs were taking
HIV/AIDS drugs could be sufficiently serious to be
actionable under the California Constitution, because
“even negligent disclosure of HIV-positive status can be
an egregious violation of social norms if it causes harm—
including psychological harm—to the patient.” Doe v.
Beard, 63 F. Supp. 3d 1159, 1170 (C.D. Cal. 2014).
However, Plaintiffs do not allege this is a regular or
widespread practice, as opposed to an isolated incident,
sufficient to entitle Plaintiffs to equitable and injunctive
relief directed against the Program as a whole. There is
no allegation this incident was integrally or inevitably
part of the Program.
Accordingly, CVS’s motion to dismiss Plaintiffs’ UCL
claim is GRANTED without leave to amend.
F. ERISA Claims
1. Denial of Benefits
Section 502(a)(1)(B) of ERISA allows for recovery of
benefits due “under the terms of [an ERISA] plan.” 29
U.S.C. § 1132(a)(1)(B). “In order to state a claim for
denial of benefits under ERISA, Plaintiffs must allege
plausible facts showing they were owed benefits under
the . . . Plan. This requires Plaintiffs to allege (1) the
existence of an ERISA plan, and to identify (2) the
provisions under the plan that entitle [them] to benefits.”
B.R. v. Beacon Health Options, No. 16-CV-04576-MEJ,
2017 WL 5665667, at *3 (N.D. Cal. Nov. 27, 2017)
(citations and internal quotation marks omitted). Here,
Plaintiffs have alleged that the benefit plan administered
by CVS is an ERISA plan, see FAC ¶ 126, but have not

57a
identified the provisions of the plan that entitle them to
the benefits they seek. Indeed, their challenge is to the
overall scope of the plan, not denial of benefits under the
plan.
Plaintiffs argue in broad terms that they are “entitled
to prescription medication benefits under the terms of
their plans,” and that “Defendants have effectively denied
Plaintiffs” these benefits “by, inter alia, denying access
to a local, knowledgeable pharmacist, by requiring a
process that risks missed medications and lost or stolen
shipments as well as other obstacles.” Opp. at 16–17.
Accordingly, Plaintiffs “seek the benefit of continued
access to community pharmacies as an ‘in-network’
benefit.” FAC ¶ 201. However, they are unable to point
to any allegation in the complaint specifying which terms
under their plans entitle them to such a benefit. Indeed,
the complaint attributes the “designation of the
community pharmacy as now being ‘out-of-network’” to
“Defendants’ changes to Class Members’ health plans’
prescription drug benefit.” Id. ¶ 197. Hence, their plans
do not confer the benefit they seek.
“A plaintiff who brings a claim for benefits under
ERISA must identify a specific plan term that confers the
benefit in question.” Steelman v. Prudential Ins. Co. of
Am., No. CIV S-06-2746 LKKGGH, 2007 WL 1080656, at
*7 (E.D. Cal. Apr. 4, 2007) (quoting Stewart v. National
Educ. Ass’n, 404 F. Supp. 2d 122, 130 (D.D.C. 2005), aff’d,
471 F.3d 169 (D.C. Cir. 2006)). Simply alleging violations
of the plan “without reference to the terms of the
controlling plans” is not sufficient. Forest Ambulatory
Surgical Assocs., L.P. v. United HealthCare Ins. Co., No.
10-CV-04911-EJD, 2011 WL 2748724, at *5 (N.D. Cal.
July 13, 2011). Thus, the lack of any specific reference to

58a
plan provisions which affords the benefits to which they
contend they are entitled warrants dismissal of Plaintiffs’
denial-of-benefits ERISA claim. See id. (finding that
plaintiff’s “conclusory allegations” that “[u]nder the
terms of the relevant written ERISA plans and written
Assignment Agreements, [defendant] was obligated to
pay [plaintiff] the amount of the Claims submitted under
the ERISA plans for the procedures performed by
[plaintiff’s] medical staff” were insufficient to plead an
ERISA claim).
Accordingly, Plaintiffs’ denial of benefits claim under
ERISA is DISMISSED with prejudice.
2. Breach of Fiduciary Duty
Plaintiffs next argue that CVS breached its fiduciary
duties in administering the benefit plans. There are two
types of ERISA fiduciaries: “named” and “functional.”
Santomenno v. Transamerica Life Ins. Co., 883 F.3d 833,
837 (9th Cir. 2018). CVS argues it is neither a named nor
a functional fiduciary with respect to Plaintiffs’ benefit
plans. CVS seeks to introduce the prescription benefits
services contracts between CaremarkPCS and three of
the Employer Defendants (Amtrak, Time Warner, and
Lowe’s). See Docket Nos. 88-1, 88-2, 88-4. Plaintiffs
object to CVS’s attempt to introduce the contracts. See
Docket No. 116. On a motion to dismiss, “courts may take
into account documents whose contents are alleged in a
complaint and whose authenticity no party questions, but
which are not physically attached to the plaintiff’s
pleading.” Davis v. HSBC Bank Nevada, N.A., 691 F.3d
1152, 1160 (9th Cir. 2012) (citation, internal quotations
marks, and alterations omitted).
As an initial matter, Plaintiffs “question the

59a
authenticity of these contracts having not had an
opportunity to confirm whether these are, in fact, the
correct and complete contracts between the parties
through discovery.” Docket No. 116 at 2. In response,
CVS quotes the Ninth Circuit’s statement in Davis that
“[w]hether or not [the plaintiff] had access to and
reviewed the proffered documents is a matter unrelated
to their authenticity—i.e., whether the documents are
‘what its proponent claims.’” Docket No. 119 at 2 (quoting
Davis, 691 F.3d at 1161). However, this quote is taken out
of context. Davis was assessing the claim of a plaintiff
who insisted that he had properly challenged the
authenticity of documents proffered by the defendant
before the district court by simply asserting that he had
not been able to review the documents. See Davis, 691
F.3d at 1160. It was in response to this argument that the
Ninth Circuit explained that objecting to a lack of access
to documents is not equivalent to challenging the
authenticity of documents. See id. at 1161.
In contrast to the plaintiff in Davis, Plaintiffs in this
case have explicitly questioned the authenticity of the
contracts, which are between CVS and Plaintiffs’
employers. However, Plaintiffs’ “ongoing and substantial
reliance on the [contracts] as a basis for [their] allegations
substantially weakens [their] position.” In re Silicon
Graphics Inc. Sec. Litig., 183 F.3d 970, 986 (9th Cir. 1999),
abrogated on other grounds as recognized in South Ferry
LP, No. 2 v. Killinger, 542 F.3d 776, 784 (9th Cir. 2008).
Among other things, the complaint alleges that “one of
CVS Caremark’s roles as a prescription drug benefit
administrator . . . is to establish and contractually control
which, if any, non-CVS pharmacies are “in-network,”
thereby determining where Class Members may

60a
purchase their prescription drugs with full insurance
coverage, FAC ¶ 68; that “CVS Caremark is specifically
identified in the Summary Plan Descriptions of certain
employers’ health benefit plans . . . as a fiduciary,” id.
¶ 100; that Employer Defendants “have entered into a
series of agreements [with CVS] that reduced the health
benefits available to their members and resulted in
discriminatory conduct against them,” id. ¶ 102; that CVS
exercises “significant direct and indirect control over
their subsidiary CVS pharmacies and Class Members’
access to their preferred community pharmacies . . .
through
contractual
agreements
and financial
arrangements,” id. ¶ 163; and that “AMTRAK, Lowe’s,
and Time Warner each knowingly participated in CVS’s
breach of its fiduciary duties through its agreement with
CVS subjecting members of its health plan to the
Program,” id. ¶ 209. These allegations belie Plaintiffs’
contention that they “do not reference or rely on the
agreements between CVS and Plaintiffs’ employers.”
Docket No. 116 at 2. Accordingly, the Court will consider
the contracts in reviewing Plaintiffs’ breach of fiduciary
duty claim. See Silicon Graphics, 183 F.3d at 986
(affirming district court’s consideration of SEC filings
under incorporation by reference doctrine despite
plaintiff’s challenge to their authenticity because plaintiff
“raised questions about [defendants’] stock sales, based
[her] allegations on [defendants’] SEC filings, and
submitted expert declarations that rely on the SEC forms
at issue”); see also Santomenno, 883 F.3d at 836 n.2
(incorporating ERISA documents by reference where the
complaint referred to the documents).
The contracts show that the CVS Defendants are
neither named nor functional fiduciaries with respect to

61a
Plaintiffs’ benefit plans. A “‘named fiduciary’ means a
fiduciary who is named in the plan instrument, or who,
pursuant to a procedure specified in the plan, is identified
as a fiduciary (A) by a person who is an employer or
employee organization with respect to the plan or (B) by
such an employer and such an employee organization
acting jointly.” 29 U.S.C. § 1102(a)(2). The contracts here
do not name any of the CVS Defendants in this action as
a fiduciary. They only provide that CaremarkPCS—a
non-party—shall be a “fiduciary solely for the purposes of
initial claim adjudication and appeals relating to the
coverage of prescription drug benefits” (neither of which
is at issue here), but otherwise “shall not be . . . a named
fiduciary with respect to the Plan for purposes of
ERISA.” Docket Nos. 88-1 at Pricing Schedule A § 16, 882 § 6.2, 88-4 § 6.2. Because none of the CVS Defendants
in this case is named in the plan instrument, none is a
named fiduciary.
A party not named in an ERISA plan is deemed a
functional fiduciary if:
(i) he exercises any discretionary authority
or
discretionary
control
respecting
management of such plan or exercises any
authority
or
control
respecting
management or disposition of its assets,
(ii) he renders investment advice for a fee or
other compensation, direct or indirect, with
respect to any moneys or other property of
such plan, or has any authority or
responsibility to do so, or
(iii) he has any discretionary authority or
discretionary
responsibility
in
the

62a
administration of such plan.
29 U.S.C. § 1002(21)(A). The CVS Defendants sued in this
action are neither parties to the contracts with Plaintiffs’
employers nor given any “discretionary authority or
discretionary control” under the terms of the contracts
over the management or administration of the benefit
plans. The actual party contracting with each employer is
“CaremarkPCS Health L.L.C.” Docket Nos. 88-1 at 1, 882 at 1, 88-4 at 1. “[B]ecause [the CVS Defendants] [are]
not . . . part[ies] to the . . . PBM Agreement,” they are not
fiduciaries with respect to Plaintiffs’ plans. Bickley v.
Caremark Rx, Inc., 361 F. Supp. 2d 1317, 1326 (N.D. Ala.
2004), aff’d, 461 F.3d 1325 (11th Cir. 2006).
But, even assuming CaremarkPCS had been named as
a defendant here, the terms of the contract undermine any
argument that CaremarkPCS “exercises significant if not
sole discretionary authority” over management of the
benefit plans. FAC ¶ 205. The CaremarkPCS-Amtrak
contract makes clear that Amtrak “retain[s] the sole and
absolute authority to design, amend, terminate, or
modify . . . the Plan,” as well as “complete discretionary,
binding and final authority to construe the terms of the
Plan . . . [and] to make factual determinations regarding
the payment of Claims or provisions of benefits.” 10 Docket
CaremarkPCS is designated as a fiduciary “solely for the purposes
of initial claim adjudication and appeals relating to the coverage of
prescription drug benefits.” Docket Nos. 88-1 at Pricing Schedule A
§ 16, 88-2 § 6.2, 88-4 § 6.2. But the Plaintiffs do not allege that CVS
breached its fiduciary duty with respect to those two functions. See
Del Prete v. Magellan Behavioral Health, Inc., 112 F. Supp. 3d 942,
946 (N.D. Cal. 2015) (“[A]n entity may be a fiduciary under ERISA
for some purposes and not for others . . . .”) (citing Pegram v.
Herdrich, 530 U.S. 211, 225 (2000)). CaremarkPCS is not afforded
discretionary authority over the design of the plan.
10

63a
No. 88-1 at Pricing Schedule A § 16. The contract
expressly disclaims any discretionary authority in
CaremarkPCS; it states that CaremarkPCS “shall not
be . . . the administrator of the Plan for any purpose,”
“delegated discretionary authority . . . with respect to the
Plan or its administration,” or “deemed a fiduciary with
respect to the Plan for purposes of ERISA.” Id. Nearidentical provisions appear in the Timer Warner and
Lowe’s contracts. See Docket Nos 88-2 § 6.2, 88-4 § 6.2.
It also appears from the contracts that while
CaremarkPCS designates
drugs
as “specialty
medications” subject to the Program’s restrictions, the
Employer Defendants retain the ultimate authority to
exempt drugs so designated from the restrictions. See
Docket No. 88-2 § 2.6(a) (providing that Employer can
“elect[] to treat” certain drugs “designated as excluded
from coverage” as “Covered Drugs.”), 88-4 § 2.6(a)
(same).
Relying on similar express contract terms limiting the
discretionary authority of the PBM, Courts have
consistently determined that the PBM is not a functional
fiduciary. 11 In Moeckel v. Caremark, Inc., as in this case,
the plaintiff alleged that the benefit plan administrator

Plaintiffs make the argument that the Court “cannot find that a
PBM [like CaremarkPCS] is [not] a fiduciary” based on “adjudicated
facts set forth in other courts’ opinions,” because in ruling on a motion
to dismiss, a court may not take judicial notice of another court’s
opinion “for the truth of the facts recited therein.” Opp. at 19 n.3. The
rule Plaintiffs cite has no application here, because these opinions
conclude, in light of the terms of the governing contracts, that plan
administrators are not fiduciaries as a matter of law; this Court is not
taking judicial notice of facts, but of the persuasiveness of the
construction of similar contracts.

11

64a
served as an ERISA fiduciary by exercising discretion in
determining what drugs to include on the formulary. 622
F. Supp. 2d 663, 686 (M.D. Tenn. 2007). But because the
agreement between the administrator and the employer
offering the plan expressly provided that the employer
“retained exclusive control and authority over the . . . Plan
and its administration, including with respect to its
formulary(ies) and associated programs,” the court
concluded that the administrator’s “formulary design and
management activities with respect to its proprietary
formularies are not fiduciary in nature.” Id. at 687. See
also Chicago Dist. Council of Carpenters Welfare Fund v.
Caremark, Inc., 474 F.3d 463, 474–77 (7th Cir. 2007)
(holding that plan administrator was not a fiduciary for
the purposes of managing the formulary, negotiating
prices with drug retailers, and managing rebates where
“[t]he express language of the contracts contradicts th[e]
characterization of [the administrator’s] authority over
these programs”); Bickley, 361 F. Supp. 2d at 1333–34
(finding that PBM was not acting as fiduciary in
negotiating “rebates, discounts, and other pricing
advantages”); Bd. of Trustees of W. Lake Superior Piping
Indus. Pension Fund v. Am. Benefit Plan Adm’rs, Inc.,
925 F. Supp. 1424, 1429 (D. Minn. 1996) (concluding that
corporation which performed administrative services on
behalf of a benefit plan was not a fiduciary based on “the
express terms of the Agreement” providing that “the
functions it performed, in administering the Fund, were
‘purely ministerial’”).
The cases cited by Plaintiffs do not change the
analysis. Glanton ex rel. ALCOA Prescription Drug Plan
v. AdvancePCS Inc. found that a PBM managing a drug
benefit program was a functional fiduciary “[i]n choosing

65a
whether to fill a prescription or shift a participant to a
different drug,” because “it exercise[d] discretion over the
plans’ assets.” 465 F.3d 1123, 1124 (9th Cir. 2006). But
there was no indication that the contract at issue
expressly limited the PBM’s discretionary authority over
those functions. In In re Express Scripts, Inc., PBM
Litig., the court recited the general proposition that “once
the PBM contracts were formed, [the PBM] was a
fiduciary to the extent (if any) it exercised discretion over
the management of a plan or disposition of plan assets.”
No. 4:05-MD-01672 SNL, 2008 WL 2952787, 10* (E.D.
Mo. July 30, 2008). Immediately following that sentence,
however, the court observed that “[u]nder the [relevant]
Contract(s), [the PBM] had no discretion over” drug
prices, and accordingly ruled that it was not a fiduciary
for drug pricing purposes. Id. Because the contracts here
similarly divest CaremarkPCS of discretion with respect
to its challenged functions under the plan, Express
Scripts supports CVS’s contention that it is not a
fiduciary.
Plaintiffs’ contention that the CaremarkPCS
contracts should be ignored because “a contract
exonerating an ERISA fiduciary from fiduciary
responsibilities is void as a matter of law” is likewise
inapposite. Opp. at 21 (quoting IT Corp. v. Gen. Am. Life
Ins. Co., 107 F.3d 1415, 1418 (9th Cir. 1997)); see 29 U.S.C.
§ 1110(a). While the rule cited by Plaintiffs is valid, it does
not apply until after a court has resolved the “‘threshold
question’ of whether a party ‘was performing a fiduciary
function when taking the action subject to complaint.’”
Santomenno, 883 F.3d at 840–41 (quoting Pegram, 530
U.S. at 226). It is only “[i]f [CVS] is a fiduciary . . . [that]
any interpretation of the Plan which prevents [CVS]

66a
acting in a fiduciary capacity from being found liable as a
fiduciary is void.” IT Corp., 107 F.3d at 1418 (citation,
internal quotation marks, and alterations omitted).
Plaintiffs’ argument ignores the threshold question that
begs to be answered. For the reasons stated above,
neither the named CVS Defendants nor CaremarkPCS
was performing a fiduciary function with respect to the
alleged wrongdoing here, so the rule Plaintiffs cite does
not come into play.
Finally, Plaintiffs raise for the first time in their
opposition brief the claim that CVS also violated Section
510 of ERISA, which prohibits an employer from taking
any adverse employment action against an employee “for
exercising any right to which he is entitled under the
provisions of an employee benefit plan,” or “for the
purpose of interfering with the attainment of any right to
which such participant may become entitled under the
plan.” 29 U.S.C. § 1140.
Section 510 is designed to “prevent persons and
entities from taking actions which might cut off or
interfere with a participant’s ability to collect present or
future benefits or which punish a participant for
exercising his or her rights under an employee benefit
plan.” Lessard v. Applied Risk Mgmt., 307 F.3d 1020,
1024 (9th Cir. 2002) (quoting Tolle v. Carroll Touch, Inc.,
977 F.2d 1129, 1134 (7th Cir. 1992)). “Where a plaintiff
alleges discriminatory interference under section 510, a
showing of the defendant’s ‘specific intent’ to interfere
with ERISA rights is . . . required.” Schuman v.
Microchip Tech. Inc., 302 F. Supp. 3d 1101, 1122–23 (N.D.
Cal. 2018). This requires evidence that the exercise of the
plaintiff’s ERISA rights was “the motivating force” for
the adverse actions he suffered. See Kimbro v. Atl.

67a
Richfield Co., 889 F.2d 869, 881 (9th Cir. 1989). No action
lies where the alleged loss of rights “is a mere
consequence, as opposed to a motivating factor behind the
[adverse employment action].” Dytrt v. Mountain States
Tel. & Tel. Co., 921 F.2d 889, 896 (9th Cir. 1990).
Here, Plaintiffs claim that CVS violated Section 510
“by intentionally discriminating against Plaintiffs because
of their health conditions.” Opp. at 19. But they have
alleged no facts that give rise to an inference that CVS
implemented the Program’s restrictions with the specific
intent of denying Plaintiffs their prescription drug
benefits. Instead, the complaint throughout emphasizes
that Defendants’ “decision to force Class Members to
accept CSP as their exclusive provider under the
Program” were “ultimately motivated by profit.” FAC
¶ 79; see also id. ¶ 78 (“By implementing [the Program],
CVS Caremark effectively reduces the quality of
prescription drug care provided to Class Members, . . .
allowing CVS Caremark to profit . . . .”), ¶128
(“Defendants have put their own interests above their
subscribers through their conduct of discrimination and
self-dealing by mandating the use of CSP . . . . all the time
profiting as a result thereof.”), ¶ 210 (“CVS Caremark has
decreased or eliminated plan benefits in order to increase
their own profits by requiring enrollees to only use
CSP . . . .”). These allegations do not state a Section 510
claim. See Powers v. AT&T, No. 15-CV-01024-JSC, 2015
WL 5188714, at *7 (N.D. Cal. Sept. 4, 2015) (dismissing
Section 510 claim where allegations in complaint “give rise
to an inference that the [plaintiff’s] constructive discharge
occurred due to age discrimination, but not that Plaintiff’s
supervisor or [employer] more generally had some plan to
force Plaintiff into retirement to deprive him of otherwise

68a
available benefits”).
Accordingly, CVS’s motion to dismiss Plaintiffs’
breach of fiduciary duty claim under ERISA is
GRANTED without leave to amend.
3. Co-Fiduciary Liability
Plaintiffs additionally contend that CVS and
Employer Defendants are co-fiduciaries, and thus liable
for each other’s fiduciary breaches under ERISA. Opp.
at 20. Co-fiduciary liability under ERISA is codified at 29
U.S.C. § 1105(a), which provides:
[A] fiduciary with respect to a plan shall be
liable for a breach of fiduciary responsibility
of another fiduciary with respect to the
same plan in the following circumstances:
(1) if he participates knowingly in, or
knowingly undertakes to conceal, an act or
omission of such other fiduciary, knowing
such act or omission is a breach;
(2) if, by his failure to comply with section
1104(a)(1) of this title in the administration
of his specific responsibilities which give
rise to his status as a fiduciary, he has
enabled such other fiduciary to commit a
breach; or
(3) if he has knowledge of a breach by such
other fiduciary, unless he makes reasonable
efforts under the circumstances to remedy
the breach.
However, as explained below, the Employer
Defendants were not acting as fiduciaries with respect to
their alleged conduct in this case, and therefore co-

69a
fiduciary liability cannot attach to CVS. See Part IV.B.2,
infra. Accordingly, CVS’s motion to dismiss Plaintiffs’ cofiduciary liability claim under ERISA is GRANTED
without leave to amend.
4. Full and Fair Review
ERISA requires an employee benefit plan to “afford a
reasonable opportunity to any participant whose claim for
benefits has been denied . . . a full and fair review by the
appropriate named fiduciary of the decision denying the
claim.” 29 U.S.C. § 1133(2). Regulations set forth the
minimum requirements that employee benefit plans must
include to ensure a full and fair review. See 29 C.F.R.
§ 2560.503-1(a)–(o).
Plaintiffs allege they were denied a full and fair review
by CVS’s “fail[ure] to provide a reasonable procedure for
opting-out of the Program.” FAC ¶ 224. Put another way,
the “benefit” as to which their claim is being denied is the
option to obtain HIV/AIDS medication from a non-CVS
pharmacy at in-network prices. See id. ¶ 228 (“Plaintiffs
seek the aforementioned benefit of continued access to
community pharmacies as an ‘in-network’ benefit . . . .”).
But Plaintiffs’ complaint reveals that they are not entitled
to such a benefit under the Program, since they allege that
their employers entered into contracts with CVS with a
“‘non-opt-out’ plan option that subjects members to the
Program” with “no right to request exemption from the
Program.” FAC ¶ 102. Plaintiffs cannot be denied a full
and fair review of a claim for a benefit they do not have.
See 29 C.F.R. § 2560.503-1(e) (defining “a claim for
benefits” as “a request for a plan benefit or benefits made
by a claimant in accordance with a plan’s reasonable
procedure for filing benefit claims”) (emphasis added).

70a
In any event, Plaintiffs have not identified any
procedural defects in the opt-out process. They allege
that each of the named Plaintiffs followed the prescribed
opt-out procedures and each was ultimately denied. See
id. ¶ 220. On this basis, they argue that “the review
process was neither meaningful nor performed in good
faith,” without alleging any particular procedural
deficiencies or bad faith on the part of CVS. Opp. at 24.
Their assertion that “the outcome denying Plaintiffs’
claims was foreordained,” id., demonstrates that their
complaint is directed to the result of the review, not the
process.
Accordingly, CVS’s motion to dismiss Plaintiffs’ full
and fair review claim under ERISA is GRANTED
without leave to amend.
G. Declaratory Relief
Plaintiffs’ claim for declaratory relief “rises or falls
with [their] other claims.” Surf & Sand, LLC. v. City of
Capitola, No. C 07-05043 RS, 2008 WL 2225684, at *2 n.5
(N.D. Cal. May 28, 2008). Because Plaintiffs’ other claims
fail, their claim for declaratory relief is DISMISSED.
IV. EMPLOYER DEFENDANTS’ MOTIONS TO
DISMISS
A. Rule 8(a) Pleading Standard
Employer Defendants argue that the complaint fails
to meet the pleading requirements of Federal Rule of
Civil Procedure 8(a) because it makes general allegations
against undifferentiated defendants, and does not identify
which named Plaintiff is employed by which Defendant.
See Amtrak Mot. at 6–7; Lowe’s Mot. at 9–10; Time
Warner Mot. at 9–10.

71a
The complaint is not a model of clarity. But it does
make clear that Counts 1 through 4 are only brought
“brought against the CVS Caremark Defendants.” See
FAC ¶¶ 140, 151, 170, 184. No such express statement
accompanies Counts 5 through 8, but it is fair to
understand them as being against all Defendants, since in
contrast to the references to only “CVS Caremark” or
“Employer Defendants” elsewhere in the complaint,
those Counts largely use the general term “Defendants.”
See, e.g., id. ¶¶ 196–97, 208, 232. Within these Counts, the
complaint also continues to use “CVS Caremark” to make
allegations against CVS specifically, see, e.g., id. ¶¶ 198,
205, 220–26, and to use “Employer Defendant” or the
names of individual employers when making allegations
against them specifically, see, e.g., id. ¶¶ 196, 206, 209.
Thus, for example, Plaintiffs’ denial of benefits claim
under ERISA against CVS is based on the allegation that
it “caused a reduction in or elimination of Plaintiffs’ and
Class Members’ benefits by exclusively requiring their
use of CSP to acquire these specialty medications,” id.
¶ 198, whereas the same claim against Employer
Defendants is based on their “entering into agreements
with CVS that did not provide an ability to opt-out of the
Program, . . . as well as the failure to provide clear notice
thereof,” id. ¶ 196. The complaint is sufficient to give
Employer Defendants “fair notice of the claim[s] [against
them] and the grounds upon which [they] rest[].”
Erickson v. Pardus, 551 U.S. 89, 93 (2007) (citing
Twombly, 550 U.S. at 555).
The complaint’s failure to indicate which Named
Plaintiff corresponds to which Employer Defendant is
more problematic. To be sure, the Named Plaintiffs make
the same legal claims based on similar underlying facts:

72a
each of them, prior to enrolling in the Program, obtained
his HIV/AIDS medications from a non-CVS pharmacy
but is now subject to the requirements of the program, see
FAC ¶ 20, 29, 32, 43, 50, 58; has experienced problems
with prescription deliveries under the Program, see id.
¶¶ 24, 34, 46, 51, 59; has not experienced satisfactory
consultation or counseling services at CVS Pharmacies
under the Program or with CVS service representatives,
see id. ¶ 25, 39, 48, 55, 63; (with the exception of John Doe
Four) has requested to opt-out of the Program without
success, see id. ¶¶ 23, 41, 45, 67; and has suffered
significant stress as a result of having to navigate the
Program, see id. ¶¶ 30, 42, 49, 57, 66. But without knowing
which specific Named Plaintiff is enrolled in its benefit
plan, an Employer Defendant cannot verify allegations
about that Plaintiff, such as when and how they requested
to opt-out, and what difficulties they experienced in
obtaining their medications. See Corazon v. Aurora Loan
Servs., LLC, No. 11-00542 SC, 2011 WL 1740099, at *4
(N.D. Cal. May 5, 2011) (a “complaint fails to state a claim
[where] plaintiffs do not indicate which individual
defendant or defendants were responsible for which
alleged wrongful act,” because a defendant “should not be
required to guess which allegations pertain to it”). The
complaint therefore does not give Employer Defendants
“fair notice” of the claims against them, as required by
Rule 8(a). See In re Sagent Tech., Inc., Derivative Litig.,
278 F. Supp. 2d 1079, 1094 (N.D. Cal. 2003).
Ordinarily, pleading defects like this can be cured by
amendment with more specific allegations.
Here,
however, the Court declines to grant Plaintiffs leave to
amend the complaint, because their claims against
Employer Defendants also fail on the merits, as explained

73a
below.
B. ERISA Claims
1. Denial of Benefits
Plaintiffs’ claim for denial of benefits under Section
502(a)(1)(B) of ERISA against Employer Defendants fails
for the same reason as against CVS. According to
Plaintiffs, they have “allege[d] that they are entitled to
prescription medication benefits from the in-network
pharmacist of their choice under the terms of their
employer sponsored plans.” See Docket No. 121 at 6.
However, they have not “identif[ied] a specific term that
confers the benefit[s] in question,” as is required for such
a Section 502(a)(1)(B) claim. Steelman, 2007 WL 1080656,
at *7; see Part III.F.1, supra. The paragraphs from the
complaint cited by Plaintiffs merely allege that the
Named Plaintiffs were able to obtain their HIV/AIDS
medications from community pharmacies “prior to the
implementation of the Program.” FAC ¶ 32 (emphasis
added); see also id. ¶¶ 43, 50 (Plaintiffs “had previously
been able to obtain” medications from community
pharmacies) (emphasis added). They do not allege that
under the Program, they are still entitled to the same
benefit.
Plaintiffs’ citation to Central Laborers’ Pension Fund
v. Heinz for the proposition that “an amendment placing
materially greater restrictions on the receipt of the
benefit ‘reduces’ the benefit” does not change the
analysis. 541 U.S. 739, 744 (2004). Heinz reviewed the
effect of a plan amendment on accrued benefits in a
pension plan, which, once vested, “may not be decreased
by an amendment of the plan” under what is known as the
“anti-cutback rule.” Id. at 744 (quoting 29 U.S.C.

74a
§ 1054(g)(1)). The anti-cutback rule “does not apply to
‘employee welfare benefit plans.’” Anderson v. Suburban
Teamsters of N. Illinois Pension Fund Bd. of Trustees,
588 F.3d 641, 650 (9th Cir. 2009) (quoting 29 U.S.C.
§ 1051(1)). Plaintiffs have not alleged that they have any
vested pension benefits reduced by the Program.
2. Breach of Fiduciary Duty
Plaintiffs’ claim against Employer Defendants for
breach of fiduciary duty under ERISA fails because
Employer Defendants did not act in a fiduciary capacity
with respect to the challenged conduct.
ERISA deems an entity a fiduciary only “to the
extent” that it acts in a fiduciary capacity in relation to an
ERISA plan. 29 U.S.C. § 1002(21)(A). “In every case
charging breach of ERISA fiduciary duty, then, the
threshold question is . . . whether that person was acting
as a fiduciary (that is, was performing a fiduciary
function) when taking the action subject to complaint.”
Pegram v. Herdrich, 530 U.S. 211, 226 (2000). The
Supreme Court has emphasized that “[n]othing in ERISA
requires employers to establish employee benefits plans.
Nor does ERISA mandate what kind of benefits
employers must provide if they choose to have such a
plan.” Lockheed Corp. v. Spink, 517 U.S. 882, 887 (1996)
(citation omitted). Therefore, “[e]mployers or other plan
sponsors are generally free under ERISA, for any reason
at any time, to adopt, modify, or terminate welfare plans.”
Id. at 890 (quoting Curtiss-Wright Corp. v.
Schoonejongen, 514 U.S. 73, 78 (1995)). “When employers
undertake those actions, they do not act as
fiduciaries . . . .” Id. (citations omitted).
Here, most of the allegations against Employer

75a
Defendants relate to non-fiduciary plan design functions.
Plaintiffs allege that Employer Defendants “decreased or
eliminated Plaintiffs’ and Class Members’ plan benefits.”
FAC ¶ 213. But “without exception, ‘[p]lan sponsors who
alter the terms of a plan do not fall into the category of
fiduciaries.’” Hughes Aircraft Co. v. Jacobson, 525 U.S.
432, 445 (1999) (quoting Lockheed Corp., 517 U.S. at 890).
Plaintiffs next allege that Employer Defendants
“exercise[d] discretion over whether and which pharmacy
benefits manager to select for administering pharmacy
benefits for the health plans in which their employees are
enrolled.” FAC ¶ 206. But “[Employer Defendants’]
decision to enter into the PBM Agreement with [CVS],
and to agree to the various terms contained therein, was
a plan design decision, exempt from fiduciary review.”
Moeckel, 622 F. Supp. 2d at 678.
The remaining allegations fall into three categories.
First, Plaintiffs argue that Employer Defendants
engaged in “financial self-dealing” in implementing the
Program, FAC ¶ 208, presumably because they accepted
“financial incentives” from CVS to choose the Program
over other benefit plans, id. ¶ 79. But this is just an
attempt to challenge the design of the plan in another
guise.
Plaintiffs’ own language in the complaint
demonstrates this allegation concerns the form of the plan
and its structuring of benefits:
“CVS Caremark
provid[ed] financial incentives to self-funded plans and
other plan sponsors to select the Program over a
prescription drug benefit plan that allows enrollees to use
the pharmacy of their choice.” FAC ¶ 79 (emphasis
added). “ERISA’s fiduciary duty requirement simply is
not implicated where [an employer] . . . makes a decision
regarding the form or structure of the Plan such as who is

76a
entitled to receive Plan benefits and in what amounts.”
Hughes Aircraft Co., 525 U.S. at 444.
The distinction between plan design, which does not
implicate a fiduciary duty, and plan administration, which
does, is illustrated by the two cases Plaintiffs cite. In
Caplan v. CNA Short Term Disability Plan, an employer
created a conflict of interest by outsourcing the review of
benefits claims to a third-party that allegedly had a
financial incentive to deny claims. 479 F. Supp. 2d 1108,
1109 (N.D. Cal. 2007). Similarly, in Finkelstein v.
Guardian Life Ins. Co. Am., the breach of fiduciary duty
arose from the issuer of a benefit plan “systematically
den[ying] legitimate claims in an attempt to boost
profits.” No. C 07-01130 CRB, 2007 WL 4287329, at *4
(N.D. Cal. Dec. 5, 2007). Reviewing benefits claims is a
prototypical aspect of plan administration. In contrast,
deciding to adopt a particular prescription drug benefit
plan is an aspect of plan design, and “ERISA does not
prohibit an employer from acting in accordance with its
interests as employer when not administering the plan.”
Kalda v. Sioux Valley Physician Partners, Inc., 481 F.3d
639, 646 (8th Cir. 2007).
Second, Plaintiffs argue that Employer Defendants
“are liable under ERISA for their failure to monitor CVS
in adopting this discriminatory Program.” Docket No.
121 at 12. “Failure to monitor” was not expressly alleged
as a claim in the complaint, but Plaintiffs now argue that
the claim is grounded in the allegation in FAC ¶ 103:
“Amtrak, Lowe’s, and Time Warner have each knowingly
participated in CVS’s breach of its fiduciary duties
through its agreement with CVS subjecting members of
its health plan to the Program,” and “having expressly
agreed to subject its members to the Program, each knew

77a
of CVS’s breach of its fiduciary duties and failed to make
reasonable efforts to remedy the breach.” To the
contrary, it is clear that FAC ¶ 103 pertains to Plaintiffs’
ERISA co-fiduciary claim, not a failure to monitor claim.
The language of the allegation echoes the language of 29
U.S.C. § 1105(a), which imposes co-fiduciary liability
where a fiduciary “participates knowingly in . . . an act or
omission of such other fiduciary, knowing such act or
omission is a breach,” and where “he has knowledge of a
breach by such other fiduciary, unless he makes
reasonable efforts under the circumstances to remedy the
breach.” Paragraph 103 is also sandwiched between FAC
¶ 102, which alleges that “[t]he employers . . . act as cofiduciaries with CVS,” and ¶ 104, which alleges that “CVS
is also a co-fiduciary with each of Amtrak, Lowe’s, and
Time Warner in that CVS . . . had knowledge of the breach
by each of those employers and failed to make reasonable
efforts to remedy the breach.”
Even if the allegation is construed as a “failure to
monitor” claim, it is again a challenge to the plan design
packaged in another guise. Plaintiffs make clear that the
“breach” at issue is CVS and Employer Defendants’
“agreement” to provide a benefit plan that has terms
Plaintiffs feel are unfavorable. The challenge is to the
Employer Defendants’ “decision regarding the form or
structure of the Plan” offered to employees. Hughes
Aircraft Co., 525 U.S. at 444. That decision does not
create a fiduciary duty.
In any case, “[t]he duty of an ERISA fiduciary to
review the performance of its appointees is a limited one.
Specifically, a fiduciary must review the performance of
its appointees at reasonable intervals in such a manner as
may be reasonably expected to ensure compliance with

78a
the terms of the plan and statutory standards.” In re
Calpine Corp., No. C-03-1685 SBA, 2005 WL 1431506, at
*6 (N.D. Cal. Mar. 31, 2005) (citing 29 C.F.R. § 2509.75-8,
FR-17). Here, Plaintiffs have not alleged any facts to
show that Employer Defendants “failed to periodically
review the performance of [CVS].” Id.
Third, Plaintiffs raise for the first time in their
opposition brief, as they did against CVS, the argument
that Employer Defendants violated Section 510 of
ERISA. That argument fails for the same reasons as
against CVS. See Part III.F.2, supra.
3. Co-Fiduciary Liability
Plaintiffs’ claim against Employer Defendants for cofiduciary liability under ERISA fails because CVS did not
breach its fiduciary duties. See Part III.F.2, supra; 29
U.S.C. § 1105(a).
4. Full and Fair Review
It is not clear whether Plaintiffs are bringing the “full
and fair review” claim against only CVS or against all
Defendants. There are allegations that three of the
named Plaintiffs submitted opt-out requests to both CVS
and their employers. See FAC ¶ 220. But otherwise the
complaint attributes the lack of a full and fair review
process solely to CVS. See id. ¶¶ 224–26. Plaintiffs argue
in their opposition to Lowe’s and Time Warner’s motions
to dismiss that they pleaded the “full and fair review”
claim against Employer Defendants. See Docket No. 121
at 15.
Even if this claim was adequately plead against
Employer Defendants, it fails for the same reasons it fails
against CVS. First, Plaintiffs are not entitled to the

79a
benefit of being able to opt out of the Program under their
plans, so Plaintiffs cannot be denied a full and fair review
of an opt-out request. Second, as noted above, Plaintiffs
have not identified any procedural defects in the opt-out
process. See Part III.F.4, supra.
Accordingly, Employer Defendants’ motions to
dismiss Plaintiffs’ ERISA claims is GRANTED without
leave to amend.
5. Declaratory Relief
Because Plaintiffs have not successfully stated claims
for relief against Employer Defendants under ERISA,
their claim for declaratory relief is DISMISSED.
V. CONCLUSION
For the foregoing reasons, CVS and Employer
Defendants’ motions to dismiss are GRANTED.
Plaintiffs’ claims are DISMISSED with prejudice.
The Clerk is instructed to enter judgment and close
the file.
This order disposes of Docket Nos. 87, 89, 97, and 113.
IT IS SO ORDERED.
Dated: December 12, 2018
Edward M. Chen
EDWARD M. CHEN
United States District Court

80a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
JOHN DOE ONE, et al.,
Case No. 18-cv-01031Plaintiffs, EMC
v.

JUDGMENT

CVS PHARMACY, INC.,
et al.,
Defendants.
On December 12, 2018, the Court issued its Order
Granting Defendants’ Motions to Dismiss (see Order,
Docket No. 143). Pursuant to Federal Rule of Civil
Procedure 58, the Court hereby ENTERS judgment in
favor of Defendants. The Clerk of Court shall close the
file in this matter.
IT IS SO ORDERED.
Dated: December 12, 2018
Edward M. Chen
EDWARD M. CHEN
United States District Court

81a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOHN DOE, One; et al.
Plaintiffs-Appellants,

FILED
JAN 15 2021
No. 19-15074

v.
CVS PHARMACY, INC.;
et al.,

D.C. No. 3:18-cv-01031EMC
Northern District of
California, San Francisco

Defendants-Appellees,
and

ORDER

CAREMARK RX, LLC;
CVS HEALTH
CORPORATION,
Defendants.
Before: M. SMITH and HURWITZ, Circuit Judges, and
BURGESS, 1 District Judge.
The panel unanimously voted to deny the petition for
panel rehearing. Judge Smith and Judge Hurwitz voted
to deny the petition for rehearing en banc, and Chief
Judge Burgess so recommended. The full court has been
advised of the petition for rehearing en banc and no judge
The Honorable Timothy M. Burgess, Chief United States District
Judge for the District of Alaska, sitting by designation.
1

82a
has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en
banc is DENIED.

83a
APPENDIX E
29 U.S.C. § 794. Nondiscrimination under Federal
grants and programs
(a) Promulgation of rules and regulations
No otherwise qualified individual with a disability in
the United States, as defined in section 705(20) of this
title, shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the benefits
of, or be subjected to discrimination under any program
or activity receiving Federal financial assistance or under
any program or activity conducted by any Executive
agency or by the United States Postal Service. The head
of each such agency shall promulgate such regulations as
may be necessary to carry out the amendments to this
section made by the Rehabilitation, Comprehensive
Services, and Developmental Disabilities Act of 1978.
Copies of any proposed regulation shall be submitted to
appropriate authorizing committees of the Congress, and
such regulation may take effect no earlier than the
thirtieth day after the date on which such regulation is so
submitted to such committees.
(b) “Program or activity” defined
For the purposes of this section, the term “program or
activity” means all of the operations of—
(1)(A) a department, agency, special purpose
district, or other instrumentality of a State or of a local
government; or
(B) the entity of such State or local government
that distributes such assistance and each such
department or agency (and each other State or local
government entity) to which the assistance is

84a
extended, in the case of assistance to a State or local
government;
(2)(A) a college, university, or other postsecondary
institution, or a public system of higher education; or
(B) a local educational agency (as defined in section
7801 of title 20), system of career and technical
education, or other school system;
(3)(A) an entire corporation, partnership, or other
private
organization,
or
an
entire
sole
proprietorship—
(i) if assistance is extended to such corporation,
partnership, private organization, or sole
proprietorship as a whole; or
(ii) which is principally engaged in the business
of providing education, health care, housing, social
services, or parks and recreation; or
(B) the entire plant or other comparable,
geographically separate facility to which Federal
financial assistance is extended, in the case of any
other corporation, partnership, private organization,
or sole proprietorship; or
(4) any other entity which is established by two or
more of the entities described in paragraph (1), (2), or
(3);
any part of which is extended Federal financial assistance.
(c) Significant structural alterations
providers

by small

Small providers are not required by subsection (a) to
make significant structural alterations to their existing
facilities for the purpose of assuring program
accessibility, if alternative means of providing the services
are available. The terms used in this subsection shall be
construed with reference to the regulations existing on

85a
March 22, 1988.
(d) Standards used in determining violation of section
The standards used to determine whether this section
has been violated in a complaint alleging employment
discrimination under this section shall be the standards
applied under title I of the Americans with Disabilities Act
of 1990 (42 U.S.C. 12111 et seq.) and the provisions of
sections 501 through 504, and 510, of the Americans with
Disabilities Act of 1990 (42 U.S.C. 12201-12204 and 12210),
as such sections relate to employment.

86a
APPENDIX F
42 U.S.C. § 18116. Nondiscrimination
(a) In general
Except as otherwise provided for in this title (or an
amendment made by this title), an individual shall not, on
the ground prohibited under title VI of the Civil Rights
Act of 1964 (42 U.S.C. 2000d et seq.), title IX of the
Education Amendments of 1972 (20 U.S.C. 1681 et seq.),
the Age Discrimination Act of 1975 (42 U.S.C. 6101 et
seq.), or section 794 of title 29, be excluded from
participation in, be denied the benefits of, or be subjected
to discrimination under, any health program or activity,
any part of which is receiving Federal financial assistance,
including credits, subsidies, or contracts of insurance, or
under any program or activity that is administered by an
Executive Agency or any entity established under this
title (or amendments). The enforcement mechanisms
provided for and available under such title VI, title IX,
section 794, or such Age Discrimination Act shall apply for
purposes of violations of this subsection.
(b) Continued application of laws
Nothing in this title (or an amendment made by this
title) shall be construed to invalidate or limit the rights,
remedies, procedures, or legal standards available to
individuals aggrieved under title VI of the Civil Rights
Act of 1964 (42 U.S.C. 2000d et seq.), title VII of the Civil
Rights Act of 1964 (42 U.S.C. 2000e et seq.), title IX of the
Education Amendments of 1972 (20 U.S.C. 1681 et seq.),
section 794 of title 29, or the Age Discrimination Act of
1975 [42 U.S.C. 6101 et seq.], or to supersede State laws
that provide additional protections against discrimination

87a
on any basis described in subsection (a).
(c) Regulations
The Secretary may promulgate regulations to
implement this section.

